No.

JOY DENBY-PETERSON,
PETITIONER
V.

NU2U AUTO WORLD AND PINE
VALLEY MOTORS
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
PETITION FOR A WRIT OF CERTIORARI

ELLEN M. MCDOWELL
DANIEL REINGANUM
MCDOWELL LAW, PC
46 West Main Street
Maple Shade, NJ
08052
(856) 482-5544

DANIEL R. ORTIZ
Counsel of Record
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW
SUPREME COURT
LITIGATION CLINIC
580 Massie Road
Charlottesville, VA
22903
(434) 924-3127
dortiz@law.virginia.edu

I
QUESTION PRESENTED
Whether a creditor who maintains possession of
property in which a bankruptcy estate has an interest
violates the Bankruptcy Code’s automatic stay
provision, 11 U.S.C. § 362(a), by refusing to return
that property to the debtor or trustee upon receiving
notice of the bankruptcy petition?

II
RELATED PROCEEDINGS
United States Bankruptcy Court for the District of
New Jersey
In re Denby-Peterson, No. 17–15532–ABA (October
20, 2017—granting motion for turnover and
denying motion for sanctions for violation of the
automatic stay); (March 29, 2018—dismissing the
bankruptcy petition)
United States District Court for the District of New
Jersey
Denby-Peterson v. NU2U Auto World, Civil No. 179985 (NLH) (November 1, 2018) (affirming the
October 20, 2017 judgment of the bankruptcy
court)
United States Court of Appeals for the Third Circuit
In re Denby-Peterson, No. 18-3562 (October 28,
2019) (affirming the judgment of the district court)

III
TABLE OF CONTENTS
Page(s)
Question Presented................................................. I
Related Proceeings................................................ II
Table of Authorities ............................................. IV
Opinions Below ...................................................... 1
Jurisdiction ............................................................ 1
Relevant Statutory Provisions .............................. 1
Statement ............................................................... 2
Argument ............................................................... 5
Conclusion .............................................................. 6
Appendix:
Court of Appeals Opinion (October 28,
2019) .......................................................... 1a
District Court Opinion (November 1,
2018) ........................................................ 33a
Bankruptcy Court Opinion (October 20,
2017) ........................................................ 54a

IV
TABLE OF AUTHORITIES
Page(s)
Cases:
In re Cowen, 849 F.3d 943 (10th Cir. 2017) ............. 5
In re Del Mission Ltd., 98 F.3d 1147 (9th Cir.
1996)..................................................................... 5
In re Fulton, 926 F.3d 916 (7th Cir. 2019) ............... 5
In re Knaus, 889 F.2d 773 (8th Cir. 1989) ............... 5
In re Rozier, 376 F.3d 1323 (11th Cir. 2004) ........... 5
In re Weber, 719 F.3d 72 (2d Cir. 2013) ................... 5
United States v. Inslaw, Inc., 932 F.2d 1467
(D.C. Cir. 1991) .................................................... 5
Statutory Provisions:
11 U.S.C. § 362(a)(3) ......................................... 1, 2, 4
11 U.S.C. § 541(a) ................................................. 1, 2
11 U.S.C. § 542(a) ..................................................... 2

1
PETITION FOR A WRIT OF CERTIORARI
OPINIONS BELOW
The opinion of the court of appeals (App., infra, 1a32a) is reported at 941 F.3d 115. The opinion of the
district court (App., infra, 33a-53a) is reported at 595
B.R. 184. The opinion of the bankruptcy court (App.,
infra, 54a-89a) is reported at 576 B.R. 66.
JURISDICTION
The Third Circuit entered judgment on October 28,
2019. On January 17, 2020, Justice Alito granted an
extension of time to file a petition for a writ of
certiorari until February 26, 2020. This Court’s
jurisdiction is invoked under 28 U.S.C. § 1254(1).
RELEVANT STATUTORY PROVISIONS
11 U.S.C. § 362(a) provides in pertinent part:
Except as provided in subsection (b) of this
section, a petition filed under section 301, 302, or
303 of this title * * * operates as a stay, applicable
to all entities, of— * * *
(3) any act to obtain possession of property
of the estate or of property from the estate or to
exercise control over property of the estate.
11 U.S.C. § 541(a) provides in pertinent part:
The commencement of a case under section 301,
302, or 303 of this title creates an estate. Such
estate is comprised of all the following property,
wherever located and by whomever held:

2
(1) Except as provided in subsections (b) and
(c)(2) of this section, all legal and equitable
interests of the debtor in property as of the
commencement of the case.
11 U.S.C. § 542(a) provides in pertinent part:
Except as provided in subsection (c) or (d) of this
section, an entity, other than a custodian, in
possession, custody, or control, during the case, of
property that the trustee may use, sell, or lease
under section 363 of this title * * * shall deliver to
the trustee, and account for, such property or the
value of such property, unless such property is of
inconsequential value or benefit to the estate.
STATEMENT
1. Under the Bankruptcy Code, filing a bankruptcy
petition creates a bankruptcy estate, 11 U.S.C.
§ 541(a)(1) and automatically stays certain actions, id.
§ 362(a)(3). The bankruptcy estate includes all the
debtor’s legal and equitable interests in property,
“wherever located and by whomever held.” Id.
§ 541(a)(1). The automatic stay forbids creditors from,
among other things, engaging in “any act * * * to
exercise control over property of the estate,” Id.
§ 362(a)(3), thereby preventing creditors from
interfering with the administration of the estate. The
Code’s turnover provision, id. § 542(a), works in
tandem with the automatic stay, requiring creditors to
return to the estate any property “that the trustee may
use, sell, or lease.” Ibid. The right to turnover may be
enforced through a motion filed with the bankruptcy
court.

3
2. Petitioner Joy Denby-Peterson purchased a used
2008 Chevrolet Corvette in July 2016, App., infra, 59a,
which she financed through the seller, Pine Valley
Motors, ibid. Petitioner’s creditors1 repossessed the
vehicle in early 2017 following her failure to make a
required payment. Id. at 4a-5a. As a result, petitioner
“lost work because she could not travel to the patients
she treated as a licensed practical nurse,” id. at 35a,
and lost some personal property that was within the
car, id. at 65a.
Ms. Denby-Peterson subsequently filed a voluntary
Chapter 13 bankruptcy petition. App., infra, 5a. She
promptly notified the creditors of the filing and
informed them of their obligation to return the car
pursuant to the automatic stay. Id. at 5a-6a. The
creditors refused, instead retaining possession of
petitioner’s vehicle. Id. at 6a.
3. Ms. Denby-Peterson then moved to compel
turnover of the car and to impose sanctions on her
creditors for violating the automatic stay. App., infra,
6a. The bankruptcy court ordered the creditors to
return the car, finding that it was indeed part of the
bankruptcy estate and thus subject to turnover. Id. at
75a. The court denied petitioner’s motion for
sanctions, however, concluding that the creditors had
not violated the automatic stay by retaining
possession of the car. Id. at 86a-87a.

After the initial sale, Pine Valley Motors assigned its interest in
petitioner’s vehicle to an affiliate, NU2U Auto World. App., infra,
4a. The petition refers to both entities collectively as “the
creditors.”
1

4
The bankruptcy court recognized a circuit split on
the question of whether retaining possession of
property which had been repossessed prior to a
bankruptcy filing violates the automatic stay. App.,
infra, 80a-83a. Siding with the minority circuits, it
concluded it does not. App., infra, 85a-86a. The court
expressed concern that requiring a creditor to
automatically return property of the debtor would “not
allow for the possibility of defenses to turnover.” Id. at
85a.
4. The district court affirmed. App., infra, 34a.
Pointing to the text of § 362, the court concluded that
the automatic stay is “prospective in nature,”
reasoning that “the exercise of control is not stayed,
but the act to exercise control is stayed.” Id. at 43a.
The district court also concluded that its
interpretation “balances both sides” by “prohibit[ing]
creditors from taking post-petition action” while still
“allow[ing] a bankruptcy court to fully consider a
creditor’s defenses to turnover.” Id. at 46a.
5. The Third Circuit also affirmed. The court
focused on the language of 11 U.S.C. § 362(a)(3), which
prohibits the creditors from taking “any act * * * to
exercise control over property.” The court concluded
that the term “act * * * to exercise control” “prohibit[s]
creditors [only] from taking any affirmative act to
exercise control over property of the estate” after
receiving notice of a bankruptcy petition. App., infra,
18a (emphasis added). The court also reasoned that its
interpretation comported with the purpose of the
automatic stay: to “maintain the status quo.” Id. at
20a (emphasis omitted). Finally, the court found that
the legislative history “provides no guidance” about

5
the relevant question. Id. at 22a. Thus, because the
creditors did not “affirmative[ly] act to exercise
control” over petitioner’s vehicle after she informed
them of her bankruptcy, they had not violated the
automatic stay and were not liable for sanctions. Id. at
19a.
ARGUMENT
In the decision below, the Third Circuit deepened a
circuit split on the question whether a creditor violates
bankruptcy’s automatic stay by retaining property in
which a bankruptcy estate has an interest despite
having received notice of the bankruptcy petition. See
App., infra, 14a (describing split). By holding that a
creditor does not, the Third Circuit sided with the
Tenth and D.C. Circuits2 against the Second, Seventh,
Eighth, Ninth, and Eleventh Circuits.3
On December 18, 2018, this Court granted the
petition for a writ of certiorari in City of Chicago v.
Fulton (No. 19-357) in order to resolve precisely the
question presented in this case. Accordingly, this
Court should hold this petition and dispose of it in
light of its decision in Fulton.

See In re Cowen, 849 F.3d 943 (10th Cir. 2017); United States v.
Inslaw, Inc., 932 F.2d 1467 (D.C. Cir. 1991).
3 See In re Weber, 719 F.3d 72 (2d Cir. 2013); In re Fulton, 926
F.3d 916 (7th Cir. 2019); In re Knaus, 889 F.2d 773 (8th Cir.
1989); In re Del Mission Ltd., 98 F.3d 1147 (9th Cir. 1996); In re
Rozier, 376 F.3d 1323 (11th Cir. 2004).
2

6
CONCLUSION
The petition for a writ of certiorari should be held
pending this Court’s decision in City of Chicago v.
Fulton (No. 19-357) and then disposed of as
appropriate in light of that decision.
Respectfully submitted.
ELLEN M. MCDOWELL
DANIEL REINGANUM
MCDOWELL LAW, PC
46 West Main Street
Maple Shade, NJ
08052
(856) 482-5544

FEBRUARY 2020

DANIEL R. ORTIZ
Counsel of Record
UNIVERSITY OF VIRGINIA
SCHOOL OF LAW
SUPREME COURT
LITIGATION CLINIC
580 Massie Road
Charlottesville, VA
22903
(434) 924-3127
dortiz@law.virginia.edu

APPENDIX

1a
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 18-3562

In re: JOY DENBY-PETERSON,
Appellant

Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 1-17-cv-09985)
District Judge: Hon. Noel L. Hillman

Argued May 23, 2019

Before: McKEE, SHWARTZ, and FUENTES, Circuit
Judges.
(Filed: October 28, 2019)

2a
Ellen M. McDowell [Argued]
Daniel Reinganum
McDowell Law
46 West Main Street
P.O. Box 127
Maple Shade, NJ 08052
Counsel for Appellant
Craig Goldblatt [Argued]
WilmerHale
1875 Pennsylvania Avenue, N.W.
Washington, DC 20006
Counsel for Amicus Curiae in Support of the
District Court’s Judgment

OPINION OF THE COURT

FUENTES, Circuit Judge.
At the center of this bankruptcy appeal is
“America’s first sports car”: the Chevrolet Corvette.1
Joy Denby-Peterson purchased a Chevrolet Corvette
in July 2016. Several months later, the Corvette was
repossessed by creditors after Denby-Peterson
defaulted on her car payments. Denby-Peterson
1

H.R. Res. 970, 110th Cong. (2008).

3a
subsequently filed an emergency voluntary Chapter
13 petition in the Bankruptcy Court for the District of
New Jersey. She then notified the creditors of the
bankruptcy filing and demanded that they return the
Corvette to her.
After the creditors did not comply with her
demand, Denby-Peterson filed a motion for turnover
in the Bankruptcy Court. She sought an order (1)
compelling the creditors to return the Corvette to her,
and (2) imposing sanctions for the creditors’ alleged
violation of the Bankruptcy Code’s automatic stay.2
The Bankruptcy Court entered an order mandating
turnover of the Corvette to Denby-Peterson but
denying Denby-Peterson’s request for sanctions. The
Bankruptcy Court denied the sanctions request on the
basis that the creditors did not violate the automatic
stay by failing to return the repossessed Corvette to
Denby-Peterson upon receiving notice of the
bankruptcy filing. Denby-Peterson appeals from an
order of the District Court affirming the Bankruptcy
Court.
We are now presented with an issue of first
impression for our Court: whether, upon notice of the
debtor’s bankruptcy, a secured creditor’s failure to
return collateral that was repossessed pre-bankruptcy
petition is a violation of the automatic stay. We
answer in the negative, and thus join the minority of
our sister courts—the Tenth and D.C. Circuits—in
holding that a secured creditor does not have an
affirmative obligation under the automatic stay to
2

See 11 U.S.C. §§ 362(a)(3), (k).

4a
return a debtor’s collateral to the bankruptcy estate
immediately upon notice of the debtor’s bankruptcy
because failure to return the collateral received prepetition does not constitute “an[ ] act . . . to exercise
control over property of the estate.”3 We will therefore
affirm the order of the District Court affirming the
Bankruptcy Court.
I.
A. Facts
On July 21, 2016, Debtor Joy Denby-Peterson
purchased a used yellow 2008 Chevrolet Corvette from
a car dealership named Pine Valley Motors. To finance
her purchase, Denby-Peterson entered into a retail
installment contract with Pine Valley Motors, which,
in turn, assigned its rights under the contract to its
affiliate company, NU2U Auto World.4 Under the
contract, Denby-Peterson agreed to pay (1) a $3,000
cash down payment; (2) a deferred down payment of
$2,491 by August 11, 2016 to pay sales taxes and
registration fees to obtain permanent license plate
tags; and (3) weekly installment payments of $200 for
212 weeks. Between July 2016 and February 2017,
Denby-Peterson made payments totaling $9,200
under the contract, including the $3,000 down
payment applied on the day of the sale. She never
made the required down payment of $2,491. As a
result, the creditors repossessed the Corvette in

Id. § 362(a)(3).
For the sake of brevity, we will collectively refer to Pine Valley
Motors and NU2U Auto World as “the creditors.”
3
4

5a
February or March 2017.5 The Corvette was never
titled or registered in Denby-Peterson’s name.
B. Bankruptcy Court Proceedings
i. Denby-Peterson’s Chapter 13 Bankruptcy Petition
After the Corvette was repossessed, DenbyPeterson filed a voluntary petition for relief under
Chapter 13 of the Bankruptcy Code on March 21,
2017. Under Section 362 of the Code, the filing of the
petition triggered an automatic stay of “any act to
obtain possession of property of the estate or of
property from the estate or to exercise control over
property of the estate.”6
Within two days, the creditors received notice of
Denby-Peterson’s bankruptcy filing. Counsel for
Denby-Peterson had notified them of the filing and
demanded that they return the Corvette to DenbyThe retail installment contract’s “repossession” clause states, in
relevant part: “[i]f you are in default, we may take the vehicle
from you after we give you any notice required by law.” Bankr.
Petition No. 17-15532-ABA, Doc. No. 17-5 at 3. “Default,” in turn,
is defined as including, among other things: (1) “failure to pay
any installment when due”; (2) “failure to perform or breach of
any section of th[e] contract”; and (3) “failure to obtain and
maintain the insurance required by th[e] contract.” Id.
Before the Bankruptcy Court, the parties disputed the date
of repossession. Denby-Peterson claimed that the Corvette was
repossessed on March 13, 2017, while the creditors claimed that
it was repossessed one month earlier, in February 2017. All
parties nevertheless agree that the repossession occurred before
Denby-Peterson filed for bankruptcy.
5

6

11 U.S.C. § 362(a)(3).

6a
Peterson. Counsel also maintained that the creditors’
failure to return the Corvette would result in a
violation of the automatic stay. He faxed a letter to the
creditors which stated, in relevant part:
BE ADVISED your failure to release the
vehicle to Ms. Denby-Peterson is a violation of
the Automatic Stay. If the vehicle has not been
released before 5pm today, this firm will seek
damages, costs, and attorneys’ fees against
your company for willful violations of the
automatic stay.7
The creditors did not comply with Denby-Peterson’s
demand and thus remained in possession of the
Corvette.
ii. Denby-Peterson’s Motion for Turnover
and Sanctions
Denby-Peterson then filed a motion8 for turnover
in Bankruptcy Court, asking the Bankruptcy Court to
(1) order the creditors to return the Corvette to her,
and (2) impose sanctions for the creditors alleged
violation of the automatic stay. Denby-Peterson
sought costs and attorneys’ fees for filing the motion;
compensation for “non-economic damages”; punitive

Bankr. Petition No. 17-15532-ABA, Doc. No. 5-3 at 3. See 11
U.S.C. § 362(k)(1).
8 The motion was entitled “motion for return of repossessed auto
and seeking sanctions against creditor for violat[ing] the
automatic stay.” Bankr. Petition No. 17-15532-ABA, Doc. No. 5
(original in uppercase and bold).
7

7a
damages; and “all other relief the Court deem[ed] just
and equitable.”9
The creditors opposed the motion. They also filed a
proof of claim, asserting a security interest in the
Corvette in the amount of $28,773.10
iii. The Bankruptcy Court’s Decision
Following a two-day hearing, the Bankruptcy
Court issued a written decision and order granting the
motion in part and denying it in part. The Bankruptcy
Court, inter alia, granted Denby-Peterson’s request
for turnover and thus ordered the creditors to return
the Corvette to Denby-Peterson within seven days, but
denied Denby-Peterson’s sanctions request.
The Bankruptcy Court held, inter alia, that (1) the
creditors must return the Corvette under the
Bankruptcy Code’s turnover provision in Section

Bankr. Petition No. 17-15532-ABA, Doc. No. 5-7 at 3. See 11
U.S.C. § 362(k)(1) (stating, in relevant part, that “an individual
injured by any willful violation of a stay . . . shall recover actual
damages, including costs and attorneys’ fees, and, in appropriate
circumstances, may recover punitive damages”); see also In re
Lansaw, 853 F.3d 657, 667 (3d Cir. 2017), cert. denied sub nom.
Zokaites v. Lansaw, 138 S. Ct. 1001 (2018) (“expressly concluding
that ‘actual damages’ under § 362(k)(1) include damages for
emotional distress resulting from a willful violation of the
automatic stay.”).
10 The retail installment contract’s “security interest” clause
provides that (1) Denby-Peterson gave the creditors a security
interest in, inter alia, the Corvette, and (2) the security interest
“cover[ed] all amounts [she] owe[d].” Bankr. Petition No. 1715532-ABA, Doc. No. 17-5 at 3.
9

8a
542(a),11 and (2) the creditors did not violate the
automatic stay by retaining possession of the Corvette
upon receiving notice of the bankruptcy filing. Thus,
the Bankruptcy Court determined that the creditors
were not liable for sanctions based on an alleged
violation of the automatic stay.
In reaching its holdings, the Bankruptcy Court
found that Denby-Peterson had an equitable interest
in the Corvette at the time of the bankruptcy filing,
and therefore, the Corvette was property of the estate
subject to turnover.12
Next, the Bankruptcy Court considered whether
the creditors violated the automatic stay by failing to
return the Corvette after learning of the bankruptcy
filing. It identified the split among our sister circuits
on this issue, pointing out that the Second, Seventh,
Eighth, and Ninth Circuits (“the majority”) have held
that the Bankruptcy Code’s turnover provision
requires immediate turnover of estate property that
was seized pre-petition and that failure to do so
violates the automatic stay.13 However, the Tenth and
See 11 U.S.C. § 542(a) (stating, in relevant part, that “an entity,
other than a custodian, in possession, custody, or control, during
the case, of property that the [debtor] may use, sell, or lease
under section 363 of this title . . . shall deliver to the [debtor], and
account for, such property or the value of such property, unless
such property is of inconsequential value or benefit to the
estate”).
12 See id. § 541(a) (defining “property of the estate,” in relevant
part, as “all legal or equitable interests of the debtor in property
as of the commencement of the case”).
13 See In re Fulton, 926 F.3d 916 (7th Cir. 2019); In re Weber, 719
F.3d 72 (2d Cir. 2013); In re Del Mission Ltd., 98 F.3d 1147 (9th
11

9a
D.C. Circuits (“the minority”) “have instead held that
a creditor does not violate the stay in regard to
property of the estate if it merely maintains the status
quo.”14 The Bankruptcy Court noted that the minority
was critical of the majority’s rule that Section 542(a)’s
turnover provision “is self-effectuating” because “it
does not allow for the possibility of defenses to
turnover.”15
The Bankruptcy Court ultimately adopted the
minority position, describing it as “particularly
persuasive”16 and pointing out that “[f]rom the
inception of this case there was an issue regarding
exactly what . . . [Denby-Peterson]’s interest in . . .
[the Corvette] was.”17 Accordingly, the Bankruptcy
Court concluded that the creditors did not violate the
automatic stay by failing to turn over the Corvette to
Denby-Peterson “prior to adjudication of . . . [her]
right to redeem the [Corvette],” and thus, sanctions
were not warranted.18

Cir. 1996); In re Knaus, 889 F.2d 773 (8th Cir. 1989); see also In
re Rozier, 376 F.3d 1323, 1324 (11th Cir. 2004) (per curiam)
(holding that the “district court did not err by affirming the
bankruptcy court’s order holding [the creditor] in willful
contempt of the automatic stay . . . by refusing to return the
vehicle”).
14 In re Denby-Peterson, 576 B.R. 66, 80 (Bankr. D.N.J. 2017)
(citing In re Cowen, 849 F.3d 943 (10th Cir. 2017); United States
v. Inslaw, Inc., 932 F.2d 1467 (D.C. Cir. 1991)).
15 Denby-Peterson, 576 B.R. at 82.
16 Id.
17 Id.
18 Id. at 83.

10a
C. Denby-Peterson’s Appeal to the District
Court
Denby-Peterson appealed the Bankruptcy Court’s
order denying her sanctions request. Similar to the
Bankruptcy Court, the District Court found “the
minority position more persuasive.”19 The District
Court thus affirmed the Bankruptcy Court’s order
denying Denby-Peterson’s sanctions request.20
Denby-Peterson now appeals to our Court.21
Because the creditors are not participating in this
Denby-Peterson v. Nu2u Auto World, 595 B.R. 184, 190 (D.N.J.
2018).
20 While Denby-Peterson’s appeal to the District Court was
pending, the Bankruptcy Court dismissed the underlying
bankruptcy case based on Denby-Peterson’s failure to make all
required pre-confirmation payments to the Trustee. Before
addressing the merits of the appeal, the District Court concluded
that Denby-Peterson’s appeal was not mooted by the dismissal
because the automatic-stay-related issue “is an ancillary issue
not closely intertwined with the underlying bankruptcy.” DenbyPeterson, 595 B.R. at 188.
21 The District Court had jurisdiction under 28 U.S.C. § 158(a).
We have jurisdiction under 28 U.S.C. § 158(d)(1). Because the
District Court acted as an appellate court, we review its
determinations de novo. In re Bocchino, 794 F.3d 376, 379 (3d Cir.
2015). We review the legal conclusions of the Bankruptcy Court
de novo and its factual determinations for clear error. Id. at 380.
Generally, “[t]he imposition or denial of sanctions is subject
to abuse-of-discretion review.” In re Miller, 730 F.3d 198, 203 (3d
Cir. 2013). We have not, however, addressed our standard of
review for the imposition or denial of sanctions for violations of
the automatic stay. We nevertheless need not do so now given
that (1) the Bankruptcy Court denied sanctions based on its
conclusion that the creditors did not violate the automatic stay,
and (2) we now hold that both the Bankruptcy Court and the
19

11a
appeal, we appointed Craig Goldblatt as amicus curiae
to defend the judgment of the District Court.22
II.
On appeal, Denby-Peterson renews her argument
that the creditors violated the automatic stay by not
returning the repossessed Corvette upon learning of
the bankruptcy filing. To provide context for the issue
before us, we will discuss the Bankruptcy Code’s
automatic stay before addressing the merits of this
appeal.
Under Section 362 of the Bankruptcy Code,
entitled “[a]utomatic stay,” the filing of a bankruptcy
petition automatically triggers a stay.23 Of particular
relevance to this appeal, subsection (a)(3) provides
that a bankruptcy petition “operates as a stay,
applicable to all entities, of . . . any act to obtain
possession of property of the estate . . . or to exercise
control over property of the estate.”24 Property of the
bankruptcy estate, in turn, generally includes “all
legal or equitable interests of the debtor in property as

District Court correctly concluded that there was no such
violation.
22 We thank Mr. Goldblatt for his excellent briefing and oral
advocacy in this matter.
23 11 U.S.C. § 362.
24 Id. § 362(a)(3). See H.R. Rep. No. 95-595, at 340 (1977) (stating
that “[s]ubsection (a) defines the scope of the automatic stay, by
listing the acts that are stayed by the commencement of the
case”).

12a
of the commencement of the case,”25 “wherever located
and by whomever held.”26
The automatic stay imposed by the Bankruptcy
Code has a “twofold” purpose:
(1) to protect the debtor, by stopping all
collection efforts, harassment, and foreclosure
actions, thereby giving the debtor a respite from
creditors and a chance ‘to attempt a repayment
or reorganization plan or simply be relieved of
the financial pressures that drove him [or her]
into bankruptcy;’ and (2) to protect ‘creditors by
preventing particular creditors from acting
unilaterally in self-interest to obtain payment
from a debtor to the detriment of other
creditors.’27

11 U.S.C. § 541(a)(1).
Id. § 541(a). In a Chapter 13 case, such as this case, the concept
of property of the estate is broader. See id. § 1306(a)(1) (providing
that the Chapter 13 estate includes, in addition to the property
specified in Section 541, property “that the debtor acquires after
the commencement of the bankruptcy case” but before the case is
either closed, dismissed, or converted).
27 Constitution Bank v. Tubbs, 68 F.3d 685, 691 (3d Cir. 1995)
(quoting Maritime Elec. Co. v. United Jersey Bank, 959 F.2d 1194,
1204 (3d Cir. 1991)). See Taggart v. Lorenzen, 139 S. Ct. 1795,
1804 (2019) (explaining that the automatic stay “aims to prevent
damaging disruptions to the administration of a bankruptcy case
in the short run”); Inslaw, 932 F.2d at 1473 (“The object of the
automatic stay provision is essentially to solve a collective action
problem—to make sure that creditors do not destroy the
bankrupt estate in their scramble for relief.”).
25
26

13a
In furtherance of the automatic stay’s overarching
purpose, Section 362(a)(3) “prevent[s] dismemberment of the estate,” and enables an “orderly”
distribution of the debtor’s assets.28
The consequences for willful violations of the
automatic stay are set forth in Section 362(k) which
provides that, subject to one exception, “an individual
injured by any willful violation” of the automatic stay
is entitled to “actual damages, including costs and
attorneys’ fees, and, in appropriate circumstances,
may recover punitive damages.”29 We have explained
that “[i]t is a willful violation of the automatic stay
when a creditor violates the stay with knowledge that
the bankruptcy petition has been filed. Willfulness
does not require that the creditor intend to violate the
automatic stay provision, rather it requires that the
acts which violate the stay be intentional.”30
III.
With the foregoing statutory background in mind,
we now turn our attention to the issue of first
impression before our Court: whether, upon receiving
notice of a bankruptcy petition, a secured creditor
violates the automatic stay by maintaining possession
of collateral that it lawfully repossessed pre-petition.
Specifically, we must decide whether the creditors’
failure to return the Corvette to Denby-Peterson upon
H.R. Rep. No. 95-595, at 341.
11 U.S.C. § 362(k)(1). See id. § 362(k)(2) (providing a “good
faith” exception to Section 362(k)(1)).
30 In re Lansdale Family Rests., Inc., 977 F.2d 826, 829 (3d Cir.
1992) (internal citations omitted).
28
29

14a
learning of her bankruptcy filing was a violation of the
automatic stay.31
As we previously acknowledged, there is a circuit
split on this issue, which we have not yet joined.
Under the majority position, held by the Second,
Seventh, Eighth, Ninth, and Eleventh Circuits, a
secured creditor, upon learning of the bankruptcy
filing, must return the collateral to the debtor and
failure to do so violates the automatic stay.32 However,
both the Tenth and D.C. Circuits disagree with the
majority’s interpretation of the automatic stay
provision.33 Under their view, a secured creditor is not
obligated to return the collateral to the debtor until
the debtor obtains a court order from the Bankruptcy
Court requiring the creditor to do so. Thus, according
to the minority, a creditor does not violate the
automatic stay by retaining possession of the
collateral after being notified of the bankruptcy filing.
Here, Denby-Peterson urges us to adopt the view of
the majority of our sister circuits, advancing two
theories in support of her position that the creditors
violated the automatic stay. First, she maintains that
the creditors’ failure to return the Corvette violated
the plain language of Section 362(a)(3)’s automatic
stay provision by being “an[] act . . . to exercise control
It is undisputed here that the creditors repossessed the
Corvette before Denby-Peterson had filed for bankruptcy and
that the Corvette was property of Denby-Peterson’s bankruptcy
estate.
32 See Fulton, 926 F.3d 916; Weber, 719 F.3d 72; Del Mission, 98
F.3d 1147; Knaus, 889 F.2d 773; Rozier, 376 F.3d 1323.
33 See Cowen, 849 F.3d 943; Inslaw, 932 F.2d 1467.
31

15a
over property of the estate.”34 Second, Denby-Peterson
asserts that Section 362(a)(3)’s automatic stay
provision and Section 542(a)’s turnover provision
operate together such that a violation of the turnover
provision results in a violation of the automatic stay.
Thus, according to Denby-Peterson, the creditors were
required to immediately turn over the Corvette, and
by not doing so, they violated the automatic stay. For
the reasons that follow, we are not persuaded by those
arguments and thus hold that the creditors in this
case did not violate the automatic stay. In so holding,
we join the minority of our sister circuits.
IV.
A.
We begin our interpretation of Section 362(a)(3) of
the Bankruptcy Code “where all such inquiries must
begin: with the language of the statute itself.”35
In examining the Bankruptcy Code, we are not
“guided by a single sentence or member of a sentence,
but look to the provisions of the whole law, and to its
object and policy.”36 Thus, to determine the plainness
11 U.S.C. § 362(a)(3).
Ransom v. FIA Card Servs., N.A., 562 U.S. 61, 69 (2011)
(internal quotation marks omitted).
36 Kelly v. Robinson, 479 U.S. 36, 43 (1986) (internal quotation
marks omitted). See In re Price, 370 F.3d 362, 369 (3d Cir. 2004)
(emphasizing that “in interpreting the Bankruptcy Code, the
Supreme Court has been reluctant to declare its provisions
ambiguous, preferring instead to take a broader, contextual
view”); Official Comm. of Unsecured Creditors of Cybergenics
Corp., ex rel. Cybergenics Corp. v. Chinery, 330 F.3d 548, 559 (3d
Cir. 2003) (“Statutory construction is a holistic endeavor, and this
34
35

16a
or ambiguity of Section 362(a)(3)’s statutory language,
in addition to considering the statutory language
itself, we may also engage in “a studied examination
of the statutory context.”37 If we ultimately determine
that a provision “is clear and unambiguous, [we] must
simply apply it.”38 However, if we find that a provision
is ambiguous,39 “we then turn to pre-Code practice and
legislative history to find meaning.”40
With these principles of construction in mind, we
will now examine the language of Section 362(a)(3). To
reiterate, Section 362(a)(3) provides, in relevant part,
that the filing of a bankruptcy petition “operates as a
stay . . . of . . . any act to . . . exercise control over
property of the estate.”41 According to DenbyPeterson, under the plain language of the automatic
stay, a creditor who does not turn over property of the
estate after a debtor demands its return exercises
control over that property, thereby violating the
automatic stay. While we agree that Section 362(a)(3)
is unambiguous, we decline to hold that a plain
reading of that Section compels the conclusion that the
creditors in this case violated the automatic stay by
failing to turn over the Corvette to Denby-Peterson.
is especially true of the Bankruptcy Code.” (quotation marks,
alterations and citations omitted)).
37 Price, 370 F.3d at 369.
38 In re KB Toys Inc., 736 F.3d 247, 251 (3d Cir. 2013) (citing Roth
v. Norfalco L.L.C., 651 F.3d 367, 379 (3d Cir. 2011)).
39 See Price, 370 F.3d at 369 (explaining that “a provision is
ambiguous when, despite a studied examination of the statutory
context, the natural reading of a provision remains elusive”).
40 In re Friedman’s Inc., 738 F.3d 547, 554 (3d Cir. 2013).
41 11 U.S.C. § 362(a)(3).

17a
The operative terms and phrases of Section
362(a)(3) are “stay,” “act,” and “exercise control.”
Because the Bankruptcy Code does not define them,
we must look to their ordinary meanings.42
We start with the meaning of the word “stay.”
Black’s Law Dictionary defines “stay” as “[t]he
postponement or halting of a proceeding, judgment, or
the like” or “[a]n order to suspend all or part of a
judicial proceeding or a judgment resulting from that
proceeding.”43 Moreover, Webster’s Third New
International Dictionary defines “stay” as a noun (as
it is used in Section 362) as: (1) “a bringing to a stop,”
(2) “the action of halting,” and (3) “the state of being
stopped.”44
Next, the noun “act” means, among other things,
“[s]omething done; the action or process of achieving
this.”45 Black’s Law Dictionary similarly defines “act,”

See Lamar, Archer & Cofrin, LLP v. Appling, 138 S. Ct. 1752,
1759 (2018).
43 Stay, Black’s Law Dictionary (11th ed. 2019). Black’s Law
Dictionary further defines “automatic stay” as “[a] bar to all
judicial and extrajudicial collection efforts against the debtor or
the debtor’s property, subject to specific statutory exceptions.” Id.
44 Webster’s Third New International Dictionary 2231 (1993); see
Stay,
Oxford
English
Dictionary
Online,
https://www.oed.com/view/Entry/189408?rskey=uCJBz6&
result=3&isAdvanced=false (including, among its definitions of
“stay,” “[t]he action of stopping or bringing to a stand or pause”)
(last visited Aug. 15, 2019).
45
Act,
Oxford
English
Dictionary
Online,
https://www.oed.com/view/Entry/1888?rskey=eprROF&
result=4 (last visited Aug. 15, 2019).
42

18a
in relevant part, as “[s]omething done or performed,”
or “[t]he process of doing or performing.”46
Finally, as to the phrase “exercise control,” we will
separately consider the verb “exercise” and the noun
“control.” The relevant definition of “exercise” is “[t]o
put in action or motion.”47 Webster’s Third New
International Dictionary also defines “exercise,” in
relevant part, as “to . . . make effective in action.”48
Additionally, “control,” as a noun, means, among other
things, “[t]he fact or power of directing and regulating
the actions of people or things; direction,
management; command.”49
From these definitions, we gather that Section
362(a)(3) prohibits creditors from taking any
affirmative act to exercise control over property of the
estate. As correctly pointed out by the District Court,
the statutory language “is prospective in nature . . .
the exercise of control is not stayed, but the act to
exercise control is stayed.”50 Therefore, we agree with
Act, Black’s Law Dictionary (11th ed. 2019).
Exercise,
Oxford
English
Dictionary
Online,
https://www.oed.com/view/Entry/66089?rskey=QNVdyF&
result=2&isAdvanced=false (last visited Aug. 15, 2019); see
Exercise, Black’s Law Dictionary (11th ed. 2019) (describing
“exercise” as meaning, in relevant part, “[t]o make use of; to put
into action”).
48 Webster’s Third New International Dictionary 795.
49
Control,
Oxford
English
Dictionary
Online,
https://www.oed.com/view/Entry/40562?rskey=qZlHZj&
result=1 (last visited Aug. 15, 2019); see Control, Black’s Law
Dictionary (11th ed. 2019) (identifying “the power or authority to
manage, direct, or oversee” as one of the definitions of “control”).
50 Denby-Peterson, 595 B.R. at 190.
46
47

19a
the minority position held by two of our sister courts—
the text of Section 362(a)(3) requires a post-petition
affirmative act to exercise control over property of the
estate.51
B.
Here, a post-petition affirmative act to exercise
control over the Corvette is not present. The creditors
repossessed the Corvette before Denby-Peterson had
filed for bankruptcy. Accordingly, pre-bankruptcy
petition, the creditors had possession and control of
the Corvette, and post-bankruptcy petition, the
creditors merely passively retained that same
possession and control. Although the creditors
exercised control over the Corvette by keeping it in
their possession after learning of the bankruptcy
filing, the requisite post-petition affirmative “act . . .
to exercise control over” the Corvette is not present in
this case.52 An application of the plain language of the
statute to the facts of this case thus shows that the
creditors did not violate the automatic stay.53
See Cowen, 849 F.3d at 949 (concluding that Section 362(a)(3)
“stays entities from doing something to . . . exercise control over
the estate’s property”); Inslaw, 932 F.2d at 1474 (“The automatic
stay, as its name suggests, serves as a restraint only on acts to
gain possession or control over property of the estate.”).
52 11 U.S.C. § 362(a)(3).
53 Denby-Peterson’s characterization of the creditors’ postpetition behavior as a refusal to return the Corvette upon request
does not alter our conclusion. A creditor’s refusal to comply with
a debtor’s turnover request is not an affirmative act; rather, it is
inaction. Denby-Peterson’s attempt to reframe creditors’ failure
to act as an affirmative act is unavailing as it does not alter the
passive nature of the creditors’ post-petition role in relation to
51

20a
Our conclusion is bolstered by the legislative
purpose and underlying policy goals of the automatic
stay. It is well-established that one of the automatic
stay’s primary purposes is “‘to maintain the status quo
between the debtor and [his] creditors, thereby
affording the parties and the [Bankruptcy] Court an
opportunity to appropriately resolve competing
economic interests in an orderly and effective way.’”54
Here, the creditors had possession of the Corvette both
before and after the bankruptcy filing. Thus, by
keeping possession of the Corvette after learning of
the bankruptcy filing, the creditors preserved the prepetition status quo. To hold that such a retention of
possession violates the automatic stay would directly
contravene the status-quo aims of the automatic stay.
In sum, the plain language of the automatic stay
provision in Section 362(a)(3) and the automatic stay’s
legislative purpose indicate that Congress did not
intend passive retention to qualify as “an act to . . .
exercise control over property of the estate.”55 In light
of our interpretation of Section 362(a)(3), we thus hold
that the creditors did not engage in a post-petition “act
to . . . exercise control” over the Corvette and thus did
not violate the automatic stay.56

the Corvette. See Nat’l Fed’n of Indep. Bus. v. Sebelius, 567 U.S.
519, 555 (2012) (recognizing “the distinction between doing
something and doing nothing”).
54 Taylor v. Slick, 178 F.3d 698, 702 (3d Cir. 1999) (quoting Zeoli
v. RIHT Mortg. Corp., 148 B.R. 698, 700 (D.N.H. 1993))
(emphasis and alteration in original).
55 11 U.S.C. § 362(a)(3).
56 Id.

21a
C.
Denby-Peterson, on the other hand, disregards the
automatic stay’s legislative purpose and instead relies
on Section 362(a)(3)’s scarce legislative history to
support her position. She maintains that her “plain
language reading of Section 362 is bolstered by the
1984 Amendments to the Bankruptcy Code.”57 We
disagree.
Given Section 362(a)(3)’s unambiguous text, we
need not resort to legislative history to uncover its
meaning.58 In any event, we point out that the
relevant legislative history fails to shed light on
Congress’s intent behind the 1984 addition of the
“exercise control over property of the estate” clause.
The legislative history reveals that, as originally
enacted in 1978, Section 362(a)(3) only stayed “any act
to obtain possession of property of the estate or of
property from the estate.”59 Thereafter, in 1984,
Congress amended Section 362(a)(3) by inserting the
“or to exercise control over property of the estate”
clause.60 Congress, however, “gave no explanation of
its intent.”61
Denby-Peterson nevertheless urges us to follow the
Seventh Circuit’s view that “the mere fact that
Congress expanded the provision to prohibit conduct
Appellant’s Br. at 13.
See Doe v. Hesketh, 828 F.3d 159, 167 (3d Cir. 2016).
59 Bankruptcy Reform Act of 1978, Pub. L. 95-598, § 362(a)(3), 92
Stat. 2549, 2570 (1978).
60 Bankruptcy Amendments and Federal Judgeship Act of 1984,
Pub. L. No. 98-353, § 362(a)(3), 98 Stat. 333, 371 (1984).
61 In re Young, 193 B.R. 620, 623 (Bankr. D.D.C. 1996).
57
58

22a
above and beyond obtaining possession of an asset
suggests that it intended to include conduct by
creditors who seized an asset pre-petition.”62 We will
not do so because the legislative history would be
pertinent only to the extent that Congress clearly
expressed an intent to interpret Section 362(a)(3)
contrary to its plain language. Here, Congress did not
express any intent, much less an intent to include
creditors’ passive retention of property that was seized
pre-petition.63 Moreover, even assuming that Section
362(a)(3) is ambiguous, thereby warranting
consideration of legislative history, the legislative
history’s silence provides no guidance regarding
Congress’s rationale for adding the “or to exercise
control over property of the estate” clause.
Accordingly, the interpretation that Denby-Peterson
urges us to adopt is unsupported by Section 362(a)(3)’s
legislative history as well as its statutory language.
Thompson v. Gen. Motors Acceptance Corp., LLC, 566 F.3d 699,
702 (7th Cir. 2009). See Fulton, 926 F.3d at 923 (declining to
overrule Thompson and reiterating that the amendment
“suggested congressional intent to make the stay more inclusive
by including conduct of ‘creditors who seized an asset prepetition’” (quoting Thompson, 566 F.3d at 702)); see also Weber,
719 F.3d at 80 (describing the amendment as a “significant
textual enlargement” that supports the view that “Congress
intended to prevent creditors from retaining property of the
debtor in derogation of the bankruptcy procedure . . . without
regard to what party was in possession of the property in
question when the petition was filed”).
63 See Consumer Prod. Safety Comm’n v. GTE Sylvania, Inc., 447
U.S. 102, 108 (1980) (“Absent a clearly expressed legislative
intention to the contrary, th[e] [statutory] language must
ordinarily be regarded as conclusive.”).
62

23a
V.
We now consider Denby-Peterson’s final attempt to
overcome the plain language of Section 362(a)(3).
Denby-Peterson asserts that Section 362’s automatic
stay should be read in conjunction with Section
542(a)’s allegedly self-effectuating turnover provision.
We are not persuaded.
Under Section 542(a), creditors who are in
possession of property of the estate must turn over
such property to the debtor “during the [Bankruptcy]
case.”64 The turnover provision states, in relevant
part, that “an entity, other than a custodian,” such as
a creditor,65
in possession, custody, or control, during the
case, of property that the [debtor] may use, sell,
or lease under section 363 . . . , or that the
debtor may exempt under section 522 . . . shall
deliver to the [debtor], and account for, such
property or the value of such property, unless
such property is of inconsequential value or
benefit to the estate.66

11 U.S.C. § 542(a). In a Chapter 13 case, such as this case, the
debtor retains control over property of the estate. See id.
§ 1306(b). Accordingly, a Chapter 13 trustee does not take
possession or liquidate property of the estate, except with respect
to money collected for the purpose of making distributions to
creditors under a plan. See id. §§ 1302, 1303.
65 See id. § 101(10)(A).
66 Id. § 542(a). See id. § 1303 (providing the Chapter 13 debtor
“the rights and powers of a trustee under sections 363(b), 363(d),
363(e), 363(f), and 363(l)”); id. § 1306(b) (stating, in relevant part,
64

24a
Denby-Peterson contends that we should join the
majority of our sister circuits and conclude that: (1)
Section 542(a)’s turnover provision is self-executing;
(2) therefore, the creditors had a mandatory duty to
return the Corvette to Denby-Peterson upon receiving
notice of the bankruptcy filing; and (3) when the
creditors rejected Denby-Peterson’s demand for
turnover, they violated the automatic stay.67 We
respectfully disagree with the majority. For the
following reasons, we conclude that Denby-Peterson’s
threefold argument is unpersuasive.
A.
First, in our view, Section 542(a)’s turnover
provision is not self-executing; in other words, a
creditor’s obligation to turn over estate property to the
debtor is not automatic.68 Rather, the turnover
provision requires the debtor to bring an adversary
proceeding in Bankruptcy Court in order to give the
Court the opportunity to determine whether the
property is subject to turnover under Section 542(a).

that “the [Chapter 13] debtor shall remain in possession of all
property of the estate”).
67 See Fulton, 926 F.3d 916; Weber, 719 F.3d 72; Del Mission, 98
F.3d 1147; Knaus, 889 F.2d 773.
68 But see Fulton, 926 F.3d at 924 (reaffirming that Section
362(a)(3) “becomes effective immediately upon filing the petition
and is not dependent on the debtor first bringing a turnover
action”); Weber, 719 F.3d at 79 (“Section 542 requires that any
entity in possession of property of the estate deliver it to the
trustees, without condition or any further action: the provision is
self-executing.” (internal quotation marks omitted)).

25a
Both the Federal Rules of Bankruptcy Procedure
and the text of the turnover provision support our
conclusion by demonstrating that the debtor’s right to
turnover is subject to substantive and procedural
requirements that must be evaluated by the
Bankruptcy Court.69 It is only after the Bankruptcy
Court determines whether those requirements are
met that the debtor’s right to turnover is triggered.
i.
We start with the procedure behind turnover.
Denby-Peterson argues that a creditor’s duty to turn
over collateral is automatically triggered when a
creditor receives notice of the bankruptcy petition. In
other words, procedurally, says Denby-Peterson, all
the debtor must do to initiate turnover is file a
bankruptcy petition and notify the creditor of the
filing. However, Federal Rule of Bankruptcy
Procedure 7001(1) explicitly indicates otherwise.
Under that Rule, the debtor must bring a request for
turnover in an adversary proceeding before a
Bankruptcy Court.70 Accordingly, contrary to DenbyPeterson’s claim, the debtor must not only file a
bankruptcy petition, he or she must also initiate a
turnover proceeding by (1) filing a complaint in
Bankruptcy Court and (2) serving a creditor with a

See 4 Norton Bankr. L. & Prac. 3d § 62:3 (2019) (stating that
“several [Bankruptcy] Code provisions play a role in determining
whether a turnover will be ordered pursuant to Code § 542(a)”).
70 See Fed. R. Bankr. P. 7001(1) (identifying, in relevant part, “a
proceeding to recover money or property” as an adversary
proceeding).
69

26a
copy of the complaint.71 This procedural requirement
negates any possibility that a creditor’s duty to turn
over property is automatic.72
ii.
Moreover, the plain language of the Bankruptcy
Code’s turnover provision also shows that the
provision is not self-effectuating. Section 542(a)
provides that only property of the estate, as defined in
Section 541, that is either (1) “property that the
[debtor] may use, sell, or lease under section 363” or
(2) property “that the debtor may exempt under
“An adversary proceeding is essentially a self-contained trial—
still within the original bankruptcy case—in which a panoply of
additional procedures apply,” In re Mansaray-Ruffin, 530 F.3d
230, 234 (3d Cir. 2008) (citing Fed. R. Bankr. P. 7001-7087),
including the requirement that a complaint must be filed to
commence such a proceeding, see Fed. R. Bankr. P. 7003 (stating
that Federal Rule of Civil Procedure 3 “applies in adversary
proceedings”).
72 Here, as noted by the Bankruptcy Court, Denby-Peterson did
not initiate an adversary proceeding. Instead, she filed a motion
for turnover entitled, in relevant part, “Motion for Return of
Repossessed Auto.” Denby-Peterson, 576 B.R. at 69.
Faced with this procedural posture, the Bankruptcy Court
concluded that the parties waived their right to an adversary
proceeding. See In re Village Mobile Homes, Inc., 947 F.2d 1282,
1283 (5th Cir. 1991) (“Compliance with the requisites of an
adversary proceeding may be excused by waiver of the parties.”).
Treating the matter as a contested motion, the Court then
addressed the merits of the turnover request. This difference in
the procedural mechanism used to achieve turnover does not
change our conclusion because, regardless of the form, a debtor
must initiate a procedural event before the Bankruptcy Court in
order for turnover to occur, if applicable, under the Bankruptcy
Court’s supervision.
71

27a
section 522,” is subject to turnover.73 The turnover
provision also explicitly limits the right to turnover to
estate property that (1) is in the possession, custody or
control of a creditor, and (2) is not “of inconsequential
value or benefit to the estate.”74 Thus, on its face, the
turnover provision includes numerous explicit
conditions that must be satisfied before a property is
subject to turnover.
In the case before us today, Denby-Peterson asks
us to essentially ignore Section 542(a)’s statutory
prerequisites and find that a creditor must
immediately turn over any collateral that a debtor
deems to be subject to turnover. We will not do so. We
further
note
that
mandating
creditors
to
automatically turn over any property that the debtor
deems worthy of turnover would allow debtors to
temporarily strip creditors of their rights to assert
affirmative defenses such as laches,75 or to claim that
the property is not property of the estate. While it is
true that creditors would presumably be able to assert
these defenses in Bankruptcy Court after turning over
the collateral to the debtor, we do not read the
turnover provision as placing the onus on creditors to
surrender the collateral and then immediately file a
motion in Bankruptcy Court asserting their rights.

11 U.S.C. § 542(a).
Id.
75 See In re Mushroom Transp. Co., Inc., 382 F.3d 325, 337 (3d
Cir. 2004); see also In re Stancil, 473 B.R. 478, 484 (Bankr. D.D.C.
2012) (“The plain language of section 542(a) demonstrates that
establishing inconsequential value or benefit to the estate is an
affirmative defense to a turnover action.”).
73
74

28a
In sum, in light of the plain language of Section
542(a)’s turnover provision, and the procedural and
substantive requirements underlying turnover, it
would be illogical for us to interpret the turnover
provision as imposing an automatic duty on creditors
to turn over collateral to the debtor upon learning of a
bankruptcy petition. We therefore reject DenbyPeterson’s claim that the turnover provision is selfeffectuating.76 Instead, we conclude that the turnover

Denby-Peterson’s reliance on the Supreme Court’s decision in
United States v. Whiting Pools, Inc. is misplaced. 462 U.S. 198,
201 (1983). Contrary to Denby-Peterson’s claim that Whiting
Pools implicitly supports the proposition that the turnover
provision is self-effectuating, Whiting Pools suggests the
opposite: that the turnover provision is not self-effectuating
because adequate protection can serve as a condition precedent
before turnover. See 11 U.S.C. § 542(a) (providing that “property
that the [debtor] may use, sell, or lease under section 363” may
be subject to turnover); id. § 363(e) (stating, in relevant part, that
“the court, with or without a hearing, shall prohibit or condition
such use, sale, or lease as is necessary to provide adequate
protection of such interest”); id. § 361 (providing examples of
“adequate protection”).
In Whiting Pools, the Bankruptcy Court, not the Chapter 11
debtor, ordered the creditor to turn over property to the debtor.
462 U.S. at 201. Moreover, it did so only “on the condition that
[the Chapter 11 corporate-debtor] provide the [creditor] with
specified [adequate] protection for its interests.” Id. See id. at n.7
(“Pursuant to [Section 363(e) of the Bankruptcy Code], the
Bankruptcy Court set the following conditions to protect the tax
lien: [the debtor] was to pay the [creditor] $20,000 before the
turnover occurred; [the debtor] also was to pay $1,000 a month
until the taxes were satisfied; the [creditor] was to retain its lien
during this period; and if [the debtor] failed to make the
payments, the stay was to be lifted.”). Whiting Pools thus
76

29a
provision is effectuated by virtue of judicial action.
The Chapter 13 debtor must first seek court
intervention, such as through an adversary
proceeding, and then the Bankruptcy Court, not the
debtor, must ultimately decide whether certain
property must be turned over to the debtor.77
B.
Additionally, we point out that our interpretation
of the turnover provision is not changed by the
turnover provision’s use of the phrase “shall deliver to
the [debtor].”78 As argued by Denby-Peterson, it may
well be so that the word “shall” strongly suggests that
turnover is mandatory.79 However, turnover is
suggests that turnover is required upon (1) the debtor’s filing of
a motion for turnover, and (2) the issuance of a court order.
77 We also note that under pre-Code practice, turnover was not
viewed as self-effectuating. Before the Bankruptcy Code was
enacted, a secured creditor, who had repossessed collateral prebankruptcy, retained possession pending the Bankruptcy Court’s
entry of a turnover order, see Ralph Brubaker, Turnover,
Adequate Protection, and the Automatic Stay (Part I): Origins
and Evolution of the Turnover Power, 33 Bankr. L. Letter No. 8,
at 4-7 (Aug. 2013), and “[n]othing in the legislative history
evinces a congressional intent to depart from that [pre-Code]
practice.” Whiting Pools, 462 U.S. at 208. See In re VistaCare
Grp., LLC, 678 F.3d 218, 227-28 (3d Cir. 2012) (recognizing that
“courts should be ‘reluctant to accept arguments that would
interpret the Code . . . to effect a major change in pre-Code
practice,’ absent at least some suggestion in the legislative
history that such a change was intended” (quoting Dewsnup v.
Timm, 502 U.S. 410, 419 (1992))).
78 11 U.S.C. § 542(a).
79 See Alabama v. Bozeman, 533 U.S. 146, 153 (2001) (“The word
‘shall’ is ordinarily the language of command.” (internal
quotation marks omitted)); Dessouki v. Att’y Gen. of United

30a
mandatory only in the context of an adversary
proceeding presided over by the Bankruptcy Court.
Under Rule 7001(1), the debtor must bring an
adversary proceeding seeking turnover. True, the
turnover provision states: “shall deliver,” but the
question before us is when must a creditor deliver?
The answer is when the Bankruptcy Court says so in
the context of an adversary proceeding brought under
Rule 7001(1). We view the statutory and procedural
framework as: (1) the Chapter 13 debtor must seek
court relief, such as by initiating an adversary
proceeding requesting turnover; (2) the Bankruptcy
Court then determines whether the property is subject
to turnover; and (3) if it is, in accordance with that
determination, the Bankruptcy Court issues a court
order compelling a creditor to turn over property to the
debtor.
Our conclusion is further supported by the United
States Supreme Court’s reasoning in Citizens Bank of
Maryland v. Strumpf.80 In that case, the Court
considered the interplay between the automatic stay81
and the turnover provision in Section 542(b). Notably,
States, 915 F.3d 964, 966 (3d Cir. 2019) (recognizing that “the
word ‘shall’ imposes a mandatory requirement”); see also Shall,
Black’s Law Dictionary (11th ed. 2019) (defining “shall,” in
relevant part, as “[h]as a duty to; more broadly, is required to,”
and characterizing that usage as “the mandatory sense that
drafters typically intend and that courts typically uphold”).
80 516 U.S. 16 (1995).
81 As relevant to Strumpf, the filing of a bankruptcy petition stays
“the setoff of any debt owing to the debtor that arose before the
commencement of the [bankruptcy] case . . . against any claim
against the debtor.” 11 U.S.C. § 362(a)(7).

31a
notwithstanding the word “shall” in that turnover
provision, the Strumpf Court did not interpret the
provision as self-executing.
Section 542(b)’s turnover provision states: “an
entity that owes a debt that is property of the
estate . . . shall pay such debt to . . . the trustee.”82
However, an entity is excused from that obligation “to
the extent that such debt may be offset under section
553 . . . against a claim against the debtor.”83 Thus,
similar to the turnover provision at issue in this case,
the turnover provision in subsection (b) includes the
word “shall” as well as a defense to turnover.
In Strumpf, the Supreme Court held that a bank’s
temporary withholding of funds in a debtor’s bank
account, pending resolution of the bank’s setoff right,84
did not violate the automatic stay. In reaching that
holding, the Court reasoned, among other things, that
interpreting Section 542(b)’s turnover provision as
self-executing would “eviscerate” the provision’s
exceptions to the duty to pay.85 Here, we likewise
decline to interpret Section 542(a)’s “shall deliver”
clause in a way that would disregard the provision’s
explicit defenses.86
Id. § 542(b) (emphasis added).
Id.
84 See Strumpf, 516 U.S. at 19 (“Petitioner refused to pay its debt,
not permanently and absolutely, but only while it sought relief
under § 362(d) from the automatic stay.”).
85 Id. at 20.
86 See Smith v. City of Jackson, 544 U.S. 228, 233 (2005) (“[W]hen
Congress uses the same language in two statutes having similar
purposes . . . it is appropriate to presume that Congress intended
that text to have the same meaning in both statutes.”).
82
83

32a
C.
Even assuming the turnover provision is selfexecuting, as pointed out by the Tenth Circuit, “there
is still no textual link between [Section] 542 and
[Section] 362.”87 The language of the automatic stay
provision and the turnover provision do not refer to
each other. The absence of an express textual link
between the two provisions indicates that they should
not be read together, so violation of the turnover
provision would not warrant sanctions for violation of
the automatic stay provision.
VI.
Guided by the plain language of the Bankruptcy
Code’s automatic stay and turnover provisions, the
legislative purpose and policy goals of the automatic
stay, and the reasoning of the Supreme Court and our
two sister circuits, we hold that a creditor in
possession of collateral that was repossessed before a
bankruptcy filing does not violate the automatic stay
by retaining the collateral post-bankruptcy petition.
We will thus affirm the order of the District Court
affirming the Bankruptcy Court’s order denying
Denby-Peterson’s request for sanctions.

87

Cowen, 849 F.3d at 950.

33a
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
JOY DENBY-PETERSON,
Civil No. 17-9985 (NLH)
Appellant,
OPINION
v.
NU2U AUTO WORLD and
PINE VALLEY MOTORS,
Appellees.

APPEARANCES:
ELLEN M. MCDOWELL
MCDOWELL LAW, PC
46 WEST MAIN ST.
MAPLE SHADE, NJ 08052
Attorney For Appellant Joy Denby-Peterson
DAVID A. SNYDER
LAW OFFICE OF DAVID A. SNYDER
11 WEST ORMOND AVENUE
SUITE 150 C
CHERRY HILL, NJ 08002
Attorney for Appellees Nu2u Auto World and
Pine Valley Motors

34a
HILLMAN, District Judge
This appeal arises from the Bankruptcy Court’s order
denying Appellant Joy Denby-Peterson’s (“Appellant” or
“Denby-Peterson”) sanctions request, concerning an
alleged violation of an automatic stay by Appellees Nu2u
Auto World (“Nu2u”) and Pine Valley Motors (“PVM”
and, collectively, “Appellees”). For the reasons expressed
below, the decision of the Bankruptcy Court will be
affirmed, and this appeal will be dismissed.
BACKGROUND
This Court takes its brief recitation of facts from the
briefs and notes any factual disputes where applicable.
On July 21, 2016, Denby-Peterson purchased a 2008
Chevrolet Corvette (the “Vehicle”) from PVM. On the
same day, Denby-Peterson entered into a Retail
Installment Contract (the “Contract”) which required
her to make certain down payments and installment
payments. This was assigned to Nu2u.
The contract required (1) an initial $3,000 down
payment, (2) installment payments of $200 per week for
212 weeks, and (3) a deferred $2,491 down payment on
or before August 11, 2016. Under the Contract, if
Denby-Peterson did not make the deferred down
payment, any excess payments would be applied to it.
Denby-Peterson paid the initial down payment, did not
pay the deferred down payment, and began to miss
installment payments. Appellees did not apply her
installment payments to the deferred down payments.
Regardless, Nu2u (through a third-party) repossessed

35a
the Vehicle.1 After the repossession of the Vehicle,
Denby-Peterson lost work because she could not travel
to the patients she treated as a licensed practical nurse.
On March 21, 2017, Denby-Peterson filed the
underlying Chapter 13 bankruptcy petition. DenbyPeterson, through her attorneys, notified Nu2u of the
bankruptcy proceeding and demanded Nu2u return the
vehicle to Denby-Peterson. Nu2u did not return the
vehicle and Denby-Peterson filed a Motion for Turnover
(the “Motion”) on March 24, 2017. The Motion included
a request for sanctions for Nu2u’s alleged violation of
the automatic stay under 11 U.S.C. § 362(k).
Nu2u resisted the Motion on April 3, 2017 by
asserting that although Denby-Peterson had purchased
the Vehicle she had surrendered all rights in the Vehicle
when she signed a document on February 22, 2017
allegedly waiving her right to redeem the Vehicle (the
“Waiver Document”). Nu2u alleged this document was
signed when Denby-Peterson visited Nu2u to retrieve
her personal property from the Vehicle after

The date of repossession was disputed strenuously at the
hearing mentioned infra, as it was central to the underlying
dispute of the parties concerning the signing of a waiver and
whether turnover was warranted. Except for chronological
purposes, the date of repossession is not particularly important
to this dispute. For the sake of completeness, Appellees assert
February 19, 2017 was the date of repossession and Appellant
asserts it was on March 12, 2017. Both dates are before the filing
of the underlying bankruptcy petition.
1

36a
repossession.2 Additionally, Nu2u filed a Proof of Claim,
asserting a security interest in the Vehicle.
On August 16 and 17, 2017, the United States
Bankruptcy Court for the District of New Jersey (the
“Bankruptcy Court”) held a plenary hearing on the
Motion. Post-hearing memoranda were filed. On
October 20, 2017, the Bankruptcy Court issued an
Order and Opinion.
Of relevance, the Opinion held that Denby-Peterson
was the lawful owner of the Vehicle, the Waiver
Document was invalid under New Jersey law, and Nu2u
was not liable for sanctions for retaining possession of
the Vehicle after the automatic stay was instituted. The
contents of the hearing and the Bankruptcy Court
Opinion and Order will be discussed in further detail
infra where relevant.
Denby-Peterson filed a timely notice of appeal on
October 30, 2017. The issues presented infra were fully
briefed by both parties. On May 4, 2018, the Bankruptcy
Court dismissed the underlying bankruptcy case. On
October 3, 2018, this Court issued an Order to Show
Cause why this appeal was not mooted by the dismissal
of the underlying case. Denby-Peterson timely
responded to the Order to Show Cause on October 13,
2018. This appeal is ripe for adjudication.

Denby-Peterson stated in the underlying proceeding that she
never visited Nu2u and never received her personal property on
that date.
2

37a
DISCUSSION
A. Subject Matter Jurisdiction
This Court has jurisdiction over the appeal from the
Bankruptcy Court’s October 20, 2017 order pursuant to
28 U.S.C. § 158(a), which provides in relevant part: “The
district courts of the United States shall have
jurisdiction to hear appeals from final judgments,
orders and decrees . . . of bankruptcy judges entered in
cases and proceedings referred to the bankruptcy judges
under section 157 of this title. An appeal under this
subsection shall be taken only to the district court for
the judicial district in which the bankruptcy judge is
serving.”
B. Mootness
This Court, sua sponte, ordered Appellant to show
cause why this appeal was not mooted by the May 4,
2018 dismissal of the underlying bankruptcy case.
Appellant responded to this Order to Show Cause
within the allotted time. This Court is satisfied with
Appellant’s response that this matter is not moot.
In coming to this conclusion, this Court considered
the following. “In the bankruptcy context, the
determination of whether a case becomes moot on the
dismissal of the bankruptcy hinges on the question of
how closely the issue in the case is connected to the
underlying bankruptcy.” Tellewoyan v. Wells Fargo
Home Mortg., No. 05-4653 (FLW), 2006 U.S. Dist.
LEXIS 55558, at *3 (D.N.J. Aug. 10, 2006) (quoting In
re Pattullo, 271 F.3d 898, 901 (9th Cir. 2001)). The
appeal concerns issues related to an alleged violation of

38a
the automatic stay. This question is an ancillary issue
not closely intertwined with the underlying bankruptcy.
Circuit law agrees with this assessment. In cases
where damages under 11 U.S.C. § 362(k) are at issue
and the bankruptcy has been dismissed, the § 362(k)
controversy generally survives. Javens v. City of Hazel
Park (In re Javens), 107 F.3d 359, 364 n.2 (6th Cir.
1997). See also Lawson v. Tilem (In re Lawson), 156
Bankr. 43, 45 (B.A.P. 9th Cir. 1993); In re Carraher, 971
F.2d 327, 328 (9th Cir. 1992); In re Morris, 950 F.2d
1531, 1534 (11th Cir. 1992); Price v. Rochford, 947 F.2d
829, 830-31 (7th Cir. 1991); In re Smith, 866 F.2d 576,
580 (3d Cir. 1989). As Appellant points out, “[a] Court
must have the power to compensate victims of violations
of the automatic stay and punish the violators, even
after the conclusion of the underlying bankruptcy case.”
Johnson v. Smith (In re Johnson), 575 F.3d 1079, 1083
(10th Cir. 2009) (citing Davis v. Courington (In re
Davis), 177 B.R. 907, 911 (B.A.P. 9th Cir. 1995)). This
Court finds this appeal is not moot and will decide it on
the merits.
C. Standard of Review
In reviewing a determination of the bankruptcy
court, the district courts “review the bankruptcy
court’s legal determinations de novo, its factual
findings for clear error and its exercise of discretion for
abuse thereof.” Reconstituted Comm. of Unsecured
Creditors of the United Healthcare Sys., Inc. v. State
of N.J. Dep’t of Labor (In re United Healthcare Sys.),
396 F.3d 247, 249 (3d Cir. 2005) (quoting Interface
Grp.-Nev. v. TWA (In re TWA), 145 F.3d 124, 130-31
(3d Cir. 1998)).

39a
D. Analysis
The central question presented by this appeal is
what path this Court will take in the face of a split
between the Circuit Courts - and no Third Circuit case
law explicitly deciding the split - over the imposition of
sanctions in cases of pre-petition repossession of
vehicles. Surrounding this central legal question are a
number of other legal and factual arguments specific to
this case. This Court will address each of Appellant’s
arguments in the order presented.
Before addressing Appellant’s arguments, some
background on the specific statutory provision at issue
is instructive. Once a Chapter 13 petition is filed in a
bankruptcy court, it “operates as a stay, applicable to all
entities.” 11 U.S.C. § 362(a). Of relevance, this
automatic stay applies against “any act . . . to exercise
control over property of the estate.” 11 U.S.C.
§ 362(a)(3). This clause was only added to the
Bankruptcy Code in 1984. See PL 98 Stat 353, July 10,
1984.
Subsection (k) provides the relevant rules for
imposition of penalties resulting from a violation of an
automatic stay. If the violation is “willful” then “actual
damages, including costs and attorneys’ fees” must be
awarded and punitive damages may be awarded. If the
violation is “taken by the entity in the good faith belief
that subsection (h) applies to the debtor” then recovery
is limited to “actual damages.”
The property that should be turned over from
creditors to the estate is delineated by 11 U.S.C. § 542.
This part of the Bankruptcy Code requires turnover of

40a
“property that the trustee may use, sell, or lease.” 11
U.S.C. § 542(a).
No party here disputes that (1) the Vehicle was
property Denby-Peterson could have used, (2) the
Vehicle was eventually turned over to Denby-Peterson,
and (3) Nu2u did not violate the Bankruptcy Court’s
Order requiring turnover of the Vehicle. Instead, the
parties dispute which rule governs return of a vehicle
repossessed pre-petition and not returned upon the
institution of an automatic stay.
a. The Bankruptcy Court’s Adoption of
the Minority Position
Appellant asserts there is a Circuit split on the issue
presented supra and that the Third Circuit has not
decided which position it will take. Appellant argues the
Bankruptcy Court chose the position of the minority and
that the majority position is more consonant with the
intent and purpose of the Bankruptcy Code. Appellees
agree the Bankruptcy Court applied the minority
position. But, Appellees assert even if this Circuit has
not determined which side of the split it will choose - if
either - this District has consistently employed the minority position. As a result, Appellees argue there is no
legal error evidenced in the Bankruptcy Court’s
application of the minority rule.
The split has been ably described by the Bankruptcy
Court and the parties. The majority position, which is
followed in the Second, Seventh, Eighth, and Ninth
Circuit Courts of Appeals advises that a creditor
violates the automatic stay when it fails to affirmatively
and immediately return qualifying property of the

41a
debtor that was seized pre-petition. Weber v. SEFCU
(In re Weber), 719 F.3d 72 (2d Cir. 2013); Thompson v.
Gen. Motors Acceptance Corp., LLC, 566 F.3d 699 (7th
Cir. 2009); Cal. Emp’t Dev. Dep’t. v. Taxel (In re Del
Mission), 98 F.3d 1147 (9th Cir. 1996); Knaus v.
Concordia Lumber Co. (In re Knaus), 889 F.2d 773 (8th
Cir. 1989). These courts interpret the 1984 addition to
the Bankruptcy Code to broaden the scope of the
automatic stay to require affirmative action.
The minority position, on the other hand, has only
been followed in the Tenth and District of Columbia
Circuit Court of Appeals. This position finds no violation
of the automatic stay as long as the creditor merely
maintains the status quo in effect at the time of the
automatic stay. WD Equip., LLC v. Cowen (In re
Cowen), 849 F.3d 943 (10th Cir. 2017); United States v.
Inslaw, Inc., 932 F.2d 1467 (D.C. Cir. 1991). The
minority position interprets the 1984 addition to the
Bankruptcy Code to reach out to previously
unaddressed actions to exercise control that do not
result in actual possession.
This District, according to the Bankruptcy Court,
has followed the minority position for the past twenty
years.3 Appellant argues in her brief that the
Unfortunately, neither the litigants nor the Bankruptcy Court
was able to provide citation to case law evidencing this practice.
This Court was able to find one case, Carr v. Sec. Sav. & Loan
Ass’n, 130 B.R. 434, 435 (D.N.J. 1991), in which there was a
factual citation to this practice. This provides some evidence for
the practice and the rule in this District, which requires return of
a vehicle pursuant to the automatic stay once proof of insurance
is provided.
3

42a
Bankruptcy Court is incorrect, and that New Jersey
courts “have uniformly followed the majority rule,”
citing In re Sussex SkyDive, LLC, No. 14-30236-ABA,
2016 Bankr. LEXIS 1862 (Bankr. D.N.J. Apr. 27, 2016)
and In re Stamper, No. 03-49235, 2008 Bankr. LEXIS
733 (Bankr. D. N.J. Mar. 17, 2008). As the Bankruptcy
Court explained in its Opinion, this characterization is
incorrect.
Both In re Sussex SkyDive, LLC and In re Stamper
involve wrongful post-petition action not maintenance
of the status quo. In re Sussex SkyDive, LLC concerned
a landlord who refused to allow debtor to retrieve an
airplane. 2016 Bankr. LEXIS 1862, at *10-13. The
landlord had no argument that it had any interest in the
airplane at any point in time. Id. at *20. This is
distinguishable from the instant case, where there
appeared to be a genuine dispute over the interest held
by the parties in the Vehicle. Regardless, considering
that the bankruptcy judge in this matter wrote the
opinion in the In re Sussex SkyDive, LLC matter there
is no reason to doubt his interpretation of its meaning.
In re Stamper involved a settlement between a pro
se debtor and a creditor after a Chapter 13 bankruptcy
was instituted. 2008 Bankr. LEXIS 733, at *5. When
newly-retained counsel discovered the settlement had
been erroneously paid and demanded the creditor to
refund the payment, the creditor refused. Id. at *6.
While In re Stamper cites the majority rule, it does not
apply it, as the case involved post-petition - not pre-petition - action violating the stay. Id. at *16-17.
Examining the law de novo, this Court finds the
minority position more persuasive. First, the language

43a
used in 11 U.S.C. § 362 is prospective in nature. The
relevant statutory provision states that it “operates as a
stay” of “any act . . . to exercise control over property of
the estate.” 11 U.S.C. § 362(a)(3) (emphasis added). As
is clear from the statutory text, the exercise of control is
not stayed, but the act to exercise control is stayed.
Considering there is no case law cited before 1984
showing the other clause in this subsection - which is
subject to the same prospective prefatory language reaches pre-petition action, there is no reason to treat
the added language any differently. See Cohen v. De La
Cruz (In re Cohen), 106 F.3d 52, 58 (3d Cir. 1997) (“[T]he
Supreme Court has observed that a court should ‘not
read the Bankruptcy Code to erode past bankruptcy
practice absent a clear indication that Congress
intended such a departure.’” (quoting Pa. Dep’t of Pub.
Welfare v. Davenport, 495 U.S. 552, 563 (1990))).
Second, Congress is able to craft statutory text that
imposes affirmative duties. The examples of laws which
do this are too numerous to count. Yet, when Congress
had the opportunity in 1984 to insert an affirmative
turnover duty into § 362(a), it did not do so. Congress
could have stated under § 362(a) that creditors must
turnover property in their possession upon institution of
the automatic stay.4 Instead, it added language to
broaden prohibitions on actions taken post-petition that
The citation by Appellant to 11 U.S.C. § 542 is unavailing. Just
as Congress is able to draft language creating affirmative duties,
it is also able to insert cross-citations. It did not do that in § 362.
It would be unwise - not to mention unfair - to insert that crosscitation for Congress in the absence of clear evidence Congress
intended to do so. This Court will not take on the role of legislator
here.
4

44a
do not reach the level of possession but still amount to
an exercise of control.
Third, the majority rule’s reading of broader
protections into 11 U.S.C. § 362(a)(3), especially in the
absence of clear statutory language or legislative
history (of which there is none) reaches impermissibly
beyond the text of the statute. In re Cowen presents a
more faithful reading of the addition of the “control”
clause into § 362(a)(3) which suffers none of the
infirmities of the majority’s position:
“Since an act designed to change control of
property could be tantamount to obtaining
possession and have the same effect, it appears
that § 362(a)(3) was merely tightened to obtain
full protection.” In re Bernstein, 252 B.R. 846,
848 (Bankr. D.D.C. 2000). “[U]se of the word
‘control’ in the 1984 amendment to § 362(a)(3)
suggests that the drafters meant to distinguish
the newly prohibited ‘control’ from the alreadyprohibited acts to obtain ‘possession,’ in order
to reach nonpossessory conduct that would
nonetheless interfere with the estate’s
authority over a particular property interest.”
Ralph
Brubaker,
Turnover,
Adequate
Protection, and the Automatic Stay (Part II):
Who is “Exercising Control” Over What?, 33 No.
9 Bankruptcy Law Letter NL 1 (September
2013).
It's not hard to come up with examples of such
“acts” that “exercise control” over, but do not
“obtain possession of,” the estate’s property,
e.g., a creditor in possession who improperly

45a
sells property belonging to the estate.
Similarly, “intangible property rights that
belong to the estate, such as contract rights or
causes of action are incapable of real possession
unless they are reified. Yet, (a)(3) preserves and
guards against interference with them by
staying any act to exercise control over estate
property.” In re Hall, 502 B.R. 650, 665 (Bankr.
D.D.C. 2014). If Congress had meant to add an
affirmative obligation - to the automatic stay
provision no less, as opposed to the turnover
provision - to turn over property belonging to
the estate, it would have done so explicitly. The
majority rule finds no support in the text or its
legislative history.
849 F.3d at 949-50. This Court refuses to read the
statute more broadly than its plan [sic] language
permits.
Moreover, this reading of the language has been
adopted in both the District of New Jersey and the
Eastern District of Pennsylvania. See Larami Ltd. v.
Yes! Entm’t Corp., 244 B.R. 56, 59 (D.N.J. 2000) (“In
1984, this section was amended to add the language ‘or
exercise control over.’ The apparent purpose of the
amendment was to prevent industrious plaintiffs from
avoiding the prohibition on ‘possessing’ property by
assuming control over the property.”); Amplifier
Research Corp. v. Hart, 144 B.R. 693, 694 (E.D. Pa.
1992) (“Congress evidently believed that the purpose of
staying acts for possession was defeated if plaintiffs
were still free to try to control or otherwise direct how
the debtor used his property.”).

46a
Fourth, this rule provides adequate protections for
both debtors and creditors. Appellant is correct: “[t]he
primary goal of reorganization bankruptcy is to group
all of the debtor’s property together in his estate such
that he may rehabilitate his credit and pay off his
debts . . . .” Thompson, 566 F.3d at 702. But, as the
previous sentence suggests, this is only the “primary”
goal - not the only goal. Bankruptcy also operates to
ensure the debtor “pay[s] off his debts.”
The minority rule wisely balances both sides. The
minority rule still prohibits creditors from taking postpetition action that would give them possession or
control over qualifying property. This ensures that the
property will remain a part of the estate and allows for
a bankruptcy court to distribute those assets to all
claimants in an orderly and just manner. It also still
allows damages for wrongful post-petition conduct.
Debtor’s [sic] may still request a creditor to return
property repossessed pre-petition and may still move for
a turnover of the property before a bankruptcy court.
This allows a bankruptcy court to fully consider a
creditor’s defenses to turnover before a creditor has to
turnover property to the estate.5

It is also important to note that if a creditor engages in abusive
litigation behavior to evade turnover, then a bankruptcy court
still has inherent power to hold the creditor in contempt or impose
sanctions. See Theokary v. Shay (In re Theokary), 592 F. App’x
102, 106 (3d Cir. 2015) (stating it has long been held that a court
has “the ability to do whatever is reasonably necessary to deter
abuse of the judicial process.” (quoting Eash v. Riggins Trucking
Inc., 757 F.2d 557, 567 (3d Cir. 1985) (en banc))).
5

47a
Most importantly, as the Bankruptcy Court pointed
out here, an affirmative duty still exists in certain
circumstances. If the creditor demands proof of
insurance for a vehicle, naming it as loss payee, and the
debtor complies, the creditor will be in violation of the
automatic stay unless the vehicle is returned to the
debtor. This protects both the interest of the debtor and
creditor, as it assures both that in case of accident,
insurance will cover the loss.6
Reviewing this legal issue de novo, this Court finds
no reason to disturb the ruling of the Bankruptcy Court.
This Court will apply the minority position. Specifically,
in this case, the Court finds a creditor has not violated
an automatic stay for retaining a vehicle lawfully seized
pre-petition as long as the debtor has not produced an
insurance policy denoting the creditor as the loss payee.
b. The Bankruptcy Court’s Decision
Finding No Violation of the Automatic
Stay under the Minority Position
In the alternative, Appellant argues if the minority
rule is applied to this case, then the Bankruptcy Court
still committed error in its application of the rule to
these facts. Appellant cites the case of In re Cowen, 849
F.3d 943 (10th Cir. 2017) asserting it is factually similar
to this case thus compelling imposition of sanctions.
Appellees disagree, arguing the facts allowing
imposition of sanctions in In re Cowen differ
This Court will not separately address Appellant’s policy
arguments, as it has done so here. Those policies [sic] arguments
do not persuade this Court to alter its decision that the minority
rule should apply in this case.
6

48a
significantly from the facts presented by the present
case.
In re Cowen is a unique case with exceptional facts.
The case involved two trucks owned by Jared Cowen. Id.
at 945. After one truck broke down, Mr. Cowen
borrowed money in exchange for a lien on the broken
truck in order to repair it. Id. The other truck was also
subject to a lien. Id. The truck broke down again and
Mr. Cowen was unable to make his payments on either
truck involved. Id. At least one of the trucks was
repossessed under dubious circumstances. Id. Mr.
Cowen filed a voluntary Chapter 13 petition and
requested immediate return of both the trucks. Id. at
946.
The creditors in this action, Aaron Williams and his
son-in-law Bert Dring, refused to return the trucks. Id.
at 945. Mr. Cowen successfully moved the bankruptcy
court to issue turnover orders against the creditors for
both of the trucks. Id. at 946. Mr. Williams and Mr.
Dring still refused to comply and were then made
defendants in an adversary proceeding for violation of
an automatic stay. Id. The defendants to the adversary
proceeding asserted that they had terminated Mr.
Cowen’s rights in the trucks before the bankruptcy
petition was ever filed. Id. The bankruptcy court found,
explicitly, that the defendants “manufactured the
paperwork . . . after the bankruptcy filing,” “likely
forged documents,” likely “gave perjured testimony,”
and “coached their witnesses on what to testify to during
[ ] breaks.” Id.
Appellees here are correct: In re Cowen is
distinguishable. Appellant argues that the basis for

49a
sanctions in In re Cowen was the manufacture of
documents, perjured testimony, and coaching of
witnesses. Unlike the bankruptcy court in In re Cowen,
the Bankruptcy Court here did not find that any of these
acts occurred - either pre- or post-petition. On that basis
alone, this case and In re Cowen are distinguishable.
Reviewing the record, this Court finds no clear error
upon which it could overturn the Bankruptcy Court’s
factual findings. The Bankruptcy Court ably summed
up the testimony presented to it: “the parties presented
very different stories through unconvincing testimony of
unbelievable witnesses, focusing on issues the court did
not find relevant.” While witnesses may have been
“unbelievable,” this Court can find no clear evidence of
the manufacture of documents, perjury, or the coaching
of witnesses. At worst, this Court’s review of the
testimony finds interested witnesses viewing their foggy
memory through the lens of their present circumstance.
This is not In re Cowen.7 This Court, finding no clear
error, will not disturb the Bankruptcy Court’s findings
on this matter.
c. The Bankruptcy Court’s Finding that
Denby-Peterson’s True Interest in the
Vehicle Was Unknown at the Date of
Bankruptcy Filing
Appellant also argues that the Bankruptcy Court’s
finding that the true interest in the Vehicle was
unknown at the date of the bankruptcy filing was
erroneous. Appellant appears to present three
The Court also notes that In re Cowen, coming out of the Tenth
Circuit, is only controlling so far as it is persuasive.
7

50a
arguments: (1) Appellees’ litigation position was
contradictory, which is evidence that it never truly
believed Denby-Peterson voluntarily surrendered all
right to the Vehicle; (2) Appellant claims it was clear as
a matter of law that the Waiver Document was
ineffective in surrendering Denby-Peterson’s interest in
the Vehicle; (3) even if there was a bona fide dispute,
Appellees were still required to turnover over [sic] the
Vehicle because of the automatic stay.
Appellees counter that the minority rule permits a
creditor who has repossessed property pre-petition to
retain that property until insurance is presented
designating the creditor as loss payee. Appellees also
argue that the factual circumstances which became
clear at trial were not clear at the time the proceeding
commenced.
In other words, Appellant unfairly
presents the facts in hindsight.
Appellant’s first argument is unavailing. Litigants
commonly take contradictory positions in litigation.8 In
fact, even the Federal Rules of Civil Procedure allow a
plaintiff to plead in the alternative. See FED. R. CIV. P.
8(d)(2). This is not uncommon nor indicative of the
Appellees’ true belief. It appears Appellees’ counsel was
merely attempting to protect his clients’ interests by
ensuring, no matter what the Bankruptcy Court may
rule, his clients would be protected.

In fact, even Appellant’s argument suffers from this infirmity.
On one hand, Appellant argues there was no bona fide dispute,
while on the other, she argues - even if there was - turnover was
required.
8

51a
Appellant’s second argument also misses the mark.
Appellant is correct, as a matter of law, that the Waiver
Document did not effectuate a surrender of the Vehicle
by Denby-Peterson. No party disputes that holding.
But, that does not mean that Appellant is entitled to
damages under 11 U.S.C. § 362(k). Under the minority
rule, these circumstances do not present a violation of
the stay as Appellees merely maintained the status quo
- regardless of whether their waiver argument was well
or poorly reasoned.9 If Appellant wanted sanctions, she
could have appealed to the Bankruptcy Court’s
equitable powers for redress of this alleged litigation
abuse. Those same sanctions do not arise under
§ 362(k).10
Appellant’s third argument also does not persuade
this Court that the Bankruptcy Court committed error.
The cases Appellant cites refer to the scope of the
automatic stay. Appellant is right: property only
arguably a part of the estate is subject to the automatic
stay. But, in light of this Court’s holding that the
minority rule applies, Appellees conduct is not
sanctionable.
Appellant does suffer from hindsight bias in this argument.
Even determining whether there was an equitable interest in this
case took an evidentiary hearing and multiple witnesses. The
source: a lack of information flowing from client to counsel on both
sides.
10 Again, the Court notes here that Appellant could have avoided
this conundrum entirely if Appellant would have produced to
Appellees insurance designating them as the loss payee. She
never did so. If she did, and Appellees still refused to return the
Vehicle, Appellant may have had grounds for damages based on
a willful violation of the automatic stay.
9

52a
d. The Bankruptcy Court’s Finding that
No Proof Was Offered at Trial that the
Vehicle Was Insured11
Finally, Appellant contests the Bankruptcy Court’s
finding that no evidence was offered at the plenary
hearing to prove Appellant’s car was insured.
Specifically, the Bankruptcy Court found in its Opinion
that “there was no proof at trial that [Denby-Peterson]
had any insurance at the time of filing . . . .”
This is a question of fact and this Court will not
reverse the Bankruptcy Court absent clear error. There
was no clear error here. To contest the Bankruptcy
Court’s finding, Appellant offers one piece of her
testimony stating her “insurance was intact” at the time
of the bankruptcy filing and “the insurance company . . .
sent [Nu2u and PVM] the information from their own
office via fax.”
But, other evidence was elicited during crossexamination bringing that statement into doubt. Even
though Denby-Peterson claimed she had insurance at
the time, she never produced a document showing the
insurance. This in spite of the fact that it was
specifically requested by Nu2u and PVM prior to trial.
Appellant argues in her reply brief that Appellees’ argument
concerning insurance is a red herring. In short, Appellant argues
the Appellees would not have turned over the vehicle even if they
were presented with insurance. But, Appellees noted in their first
response that no insurance had been presented. This should have
spurred Appellant into action to provide proof. Appellant did not
respond to that argument and has given this Court no citation to
the record showing she ever provided adequate, documentary
proof.
11

53a
Ultimately, when contradictory facts are presented
to a factfinder, the factfinder must rely on his credibility
determination of the witness. It is particularly
appropriate to rely on the trial court’s credibility
determinations absent clear error. Here, it is
undisputed that the Bankruptcy Court found DenbyPeterson’s testimony on this point not credible. This
finding, combined with the conflicting testimony and
lack of documentation provides ample reasoning for the
Bankruptcy Court’s factual finding. Thus, there is no
clear error. This Court will not disturb the Bankruptcy
Court’s finding.12
CONCLUSION
This Court, having reviewed the briefs of both
parties and the record presented, finds no legal or
factual reason to disturb the ruling of the Bankruptcy
Court. The Bankruptcy Court will be affirmed and this
appeal will be dismissed.
An appropriate Order will be entered.
Date: November 1, 2018
At Camden, New Jersey

s/ Noel L. Hillman

NOEL L. HILLMAN, U.S.D.J.

Even if this finding constituted clear error, it was harmless.
There is no testimony on the record that the insurance named
Nu2u as loss payee.
12

.

54a
UNITED STATES BANKRUPTCY COURT
DISTRICT OF NEW JERSEY
In Re:

Case No.: 17-15532-ABA

Joy R. Denby-Peterson

Chapter: 13

Debtor.

Judge: Andrew B.
Altenburg, Jr.

MEMORANDUM DECISION

I.

INTRODUCTION

This court has been asked to decide a dispute
between a debtor seeking return of a vehicle that she
needs to drive to work and her personal property from
inside the vehicle, and the creditor that repossessed it
prepetition and refused to return it because it believed
that the debtor had surrendered it. The debtor seeks
turnover of the vehicle under 11 U.S.C. § 542(a) and
damages for violation of the automatic stay under 11
U.S.C. § 362(a)(3).
In applying section 362(a)(3) to the retention of the
car postpetition, this court must determine whether the
debtor had an interest in the vehicle, an issue of mixed
facts and law. After a review of the deficient record and
evidence, the compiled facts of this case show that there
was not a violation of the automatic stay with regard to
the failure of the creditor to return the vehicle.

55a
Nevertheless, the vehicle must be returned to the debtor
pursuant to section 542 and the debtor may redeem the
vehicle through her chapter 13 plan, subject to
confirmation requirements.
Regarding the personal property, which the creditor
denies having, the court finds it more likely than not
that the creditor did not return the property. It must be
returned within seven days of the date of that order. As
agreed prior to the hearing on the matter, the court will
determine the appropriate relief under sections 362
and/or 542 in a separate hearing.
II.

JURISDICTION AND VENUE

The court has jurisdiction over this contested matter
under 28 U.S.C. §§ 1334(a) and 157(a)(2)(A), (E), (O) and
the Standing Order of the United States District Court
July 23, 1984, as amended on September 18, 2012,
referring all bankruptcy cases to the bankruptcy court.
This matter is a core proceeding within the meaning of
28 U.S.C. § 157(b)(2)(L). Venue is proper in this Court
pursuant to 28 U.S.C. § 1408. The statutory predicates
for the relief sought herein are 11 U.S.C. §§ 362(a)(3)
and 542(a)(1). Pursuant to Fed. R. Bankr. P. 7052, the
court issues the following findings of fact and
conclusions of law.
III. PROCEDURAL HISTORY
The debtor, Joy R. Denby-Peterson (“Debtor”), filed
an emergency petition under chapter 13 of the
Bankruptcy Code on March 21, 2017. Three days later

56a
she filed a Motion for Return of Repossessed Auto1 and
for Sanctions for Violation of Automatic Stay against
Pine Valley Motors (“Pine Valley”) on shortened time.
Doc. Nos. 5, 6. Pine Valley filed opposition on April 3,
2017. Doc. No. 17. At the hearing held April 4, 2017, the
parties agreed that a plenary hearing was necessary.
The court also ordered Pine Valley to return the
Debtor’s personal property that day. The court
scheduled the plenary hearing for April 13, 2017, but it
was adjourned at the request of the parties to May 12,
2017. On May 11, 2017, the court held a telephonic
hearing where, on request of the Debtor, the plenary
hearing was again adjourned, to a date to be
determined, to allow discovery to be completed. The
court instructed Pine Valley not to dispose, use, sell,
Some courts state that enforcement of this turnover right must
be sought by adversary proceeding, citing Federal Rule of
Bankruptcy Procedure 7001(1). Rule 7001(1) provides that an
adversary proceeding is required in “a proceeding to recover
money or property . . . .” While it seems clear that this would then
apply to actions brought under section 550(a), providing for a
trustee to “recover, for the benefit of the estate, the property
transferred,” it is not so clear that it also applies to turnover of
property of the estate. See Chapter 13 Practice & Procedure,
§ 15:12 (ed. Drake, Bonapfel, Goodman, June 2017) (stating
though technically a request for immediate turnover requires an
adversary proceeding, Fed. R. Bankr. P. 7065, 7001(7), courts
“traditionally” have treated violation of the stay as contempt that
may be sought by motion). But the creditors here waived the
procedures, and both parties exercised their discovery rights
without issue. See In re Pluta, 200 B.R. 740, 741, n. 1 (Bankr. D.
Mass. 1996) (stating that turnover should have been brought by
complaint, but that the defect is waivable and the respondent did
not raise it).
1

57a
lease, or otherwise transfer possession or ownership of
the vehicle pending final resolution of the Debtor’s
motion. On August 7, 2017, the parties filed a Joint
Statement of Undisputed Material Facts. Doc. No. 42
(“JS”). Finally, a plenary hearing was commenced on
August 16, 2017 and concluded on August 17, 2017. The
court having received the parties’ post-hearing briefs,
this matter is now ripe for disposition.
IV. FINDINGS OF FACT
Preliminarily, the court notes that it had difficulty
determining the facts in this case as the parties
presented very different stories through unconvincing
testimony of unbelievable witnesses, focusing on issues
the court did not find relevant.2 But based on the
shifting burdens, some testimony against interest, and
what it hopes is sound reasoning, the court has
constructed what it believes most likely occurred. At the
damages phase of this contested matter, the parties will

For example, the parties spent much time at the hearing trying
to prove when the vehicle was repossessed, February or March,
presumably to prove whether the Waiver, dated in February, was
legitimate. Yet both failed to submit conclusive evidence and the
court certainly did not find the testimony of the Debtor, Mr.
Cohen, Mr. Pinto or Henry Thai helpful. But, where was the tow
truck driver? The Debtor had deposed the driver, but did not
make her available for trial. The driver was the agent of Pine
Valley, but Pine Valley also did not produce her for trial, or, in
her absence, produce her partner or authenticated documentary
evidence. Nevertheless, as will be explained later, the date of the
repossession was not necessary to disposition.
2

58a
be estopped from challenging any of the findings of fact
made here.
The Debtor is a practical nurse who primarily earns
income on an independent contractor basis. 1T, at p. 15,
45.3 She is contracted out to “different facilities,” such
as the correctional system, and rehabilitation and long
term care facilities. Id. She attends to patients
throughout New Jersey. Id., at pp. 15, 43.
Pine Valley and NU2U Auto World (“NU2U”)
(collectively, “the Creditors”) are car dealerships that
offer “buy here, pay here” financing services. JS, at ¶ 8.
Anthony Pinto and Kenneth Cohen are informal
partners agreeing to equally share in ownership of Pine
Valley. 2T, at pp. 10, 109. Mr. Cohen owns NU2U, a
limited liability company. 2T, at p. 10. Pine Valley
routinely accepts installment sales payments on behalf
of NU2U. JS, at ¶ 9. The two companies share the same
computer system. 2T, at p. 41. Any employee can go into
the computer system to authorize a repossession. 2T, at
p. 140-41.
Mr. Pinto is the “primary” employee at Pine Valley.
2T, at p. 11. There is only one other employee there, but
sometimes NU2U employees will help out. 2T, at p. 11.
Similarly, Mr. Pinto is not employed by NU2U, but
“helps out” there sometimes, using its mechanic, and
going to auctions with its employees. 2T, at p. 140.

Citation to the transcripts will be denoted by 1T for the August
16th testimony and 2T for the August 17th testimony.
3

59a
The Debtor testified that after her Mercedes was
destroyed in a flash flood on July 1, 2016 she went to
Pine Valley to purchase a “new” used car. 1T, at pp. 39,
43, 46. She had met Mr. Pinto three to five years prior
and “had continuously told him [she] wanted a
Corvette.” 1T, at p. 43. See 1 T, at pp. 46, 115. On July
21, 2016, the Debtor and Pine Valley entered into a
Buyer’s Order whereby the Debtor bought and Pine
Valley sold a yellow 2008 Chevrolet Corvette (the
“Vehicle”). JS, at ¶¶ 1, 2. The parties entered into a
Precomputed Retail Installment Contract (the
“Contract”) dated July 21, 2016, to supply financing to
the Debtor through Pine Valley. JS, at ¶ 3; ex. D-2. Pine
Valley simultaneously assigned the Contract to NU2U.
JS, at ¶ 7; ex. D-2. The total to be paid by the Debtor
was $53,382.33.
The Contract required a $3,000 down payment and
then a “deferred down payment” of $2,491 to pay taxes
and obtain permanent license plate tags (“taxes and
tags”) to be paid by August 11, 2016. JS, at ¶ 4; ex. D2.4 The Creditors retained full responsibility for
processing this through the Department of Motor
Vehicles. 1T, at p. 146. The Contract also required
Examination of the Contract’s itemization reveals that $391.50
of the $2,491.15 may have been financed. The disclosed amount
financed of $26,995.00 consists of the cash price of $26,603.50
plus a $144.50 title fee plus a $250.00 documentary fee. These
fees added to the $2,099.95 sales tax equal $2,491.50. If they were
not part of the amount financed, then the Truth-in-Lending
(“TILA”) Disclosure may have been inaccurate. These
inaccuracies lend support to questioning the credibility of Messrs.
Pinto and Cohen.
4

60a
regular weekly payments of $200 beginning July 29,
2016 for 212 weeks, with a payment in week 213 of
$0.03. Ex. D-2. Mr. Pinto testified that the interest rate
was also 23.99 percent. 2T, at p. 110. Every customer
who finances a vehicle through Pine Valley is charged
that rate. Id. The Contract designated that the sale was
a “consumer creditor contract” with the Vehicle being
for “Personal, Family or Household Use.” Ex. D-2, at ¶¶
32, 3. Regarding repossession, the Contract provided
that “Personal property found in the vehicle will be
stored at your expense and may be returned to you if
you identify it. We will dispose of such property after we
have given you any notice and time to recover it that the
law requires.” Ex. D-2, at ¶ 17. Mr. Pinto was completely
unaware of this provision. 1T, at 114.
Another document signed by the Debtor and Mr.
Pinto provided that if the Debtor failed to pay the taxes
and tags balance within the allotted temporary tag
time, then the Creditors would apply all regular Vehicle
payments toward the taxes and tags until they were
paid in full. Ex. D-4. Pine Valley recommended in this
document that payments be made on the deferred down
payment “so it is not all due at one time.” Id. Pine Valley
warned that if this deferred down payment was not paid
in full by the due date, then the Vehicle would be subject
to repossession. Id. It also warned that it would be
illegal for the Debtor to drive the Vehicle until she
received her plates. Id. It stated that additional fees
would apply “after 14 days,” id., but nowhere is it
specified what these fees would be. A document titled
“Pick-Up Note Acknowledgement,” initialed by the

61a
Debtor, also stated that she owed one deferred payment
of $2,491, due on August 11, 2016. Ex. C-2.
Between July 21, 2016 and February 16, 2017, the
Debtor made payments totaling $9,200 under the
Contract, including the $3,000 down payment applied
on the day of the sale. JS, at ¶ 10. She did not make the
lump sum payment of $2,491 on August 11, 2016, or
ever make a $2,491 lump sum payment. JS, at ¶ 6. She
testified that she did not know about the $2,491
payment requirement until she visited Pine Valley
about a month after purchasing the vehicle to ask when
she would receive her permanent tags. 1T, at pp. 18-19.
She did not read any documents at the time she signed
them. 1T, at pp. 19, 43, 49-51, 63, 74. She testified that
she was not given copies of the documents she signed.
1T, at pp. 19-20, 75.
The Creditors applied $3,000 of the Debtor’s
payments to the down payment and $5,700 of regular
payments to installment payments due under the
Contract. JS, at ¶ 11, ex. D-3. They also applied $400 of
her regular payments to taxes and tags on September
16, 2016 and $100 to taxes and tags on January 18,
2017. Ex. D-3. Reviewing the transaction history, the
Debtor made payments over 28 weeks.5 In week 7, her
The Transaction History, ex. D-3, only lists 14 due dates,
representing the dates the Debtor was paid through. 1T, at p. 121.
For example, Mr. Pinto testified that on October 7, 2016, the
Debtor’s payments only caught her up to her September 16, 2016
amount due. 1T, at p. 122. There were actually 28 weeks between
the first payment on July 21, 2016 and the last on February 26,
2017.
5

62a
payments exceeded the $200 a week she owed, with her
having paid $800 extra by week 28, excluding the
deferred down payment. Therefore, at a minimum the
Creditors should have applied $800 to the deferred
down payment. Consequently, by not applying all of the
Debtor’s payments first to the taxes and tags, the
Creditors breached their contract with the Debtor that
provided that all regular Vehicle payments would be
applied to the taxes and tags until that amount was paid
in full, Ex. D-4, and left the Debtor without title and
valid tags.
Mr. Pinto testified that “she just pleaded with me to
please put them towards the car so the car wouldn’t get
repossessed[,]” but then stated “or it’s just a mistake on
my part[,]” and then changed to “I think it was just me,
I was going to take the rap for it if something – you
know, if I got in trouble for it.” 1T, at 112. Mr. Cohen
stated that this language about applying first to taxes
and tags “until it is paid in full” which may result in the
car being repossessed, and that it is illegal to drive the
car until the plates are received, is just “to scare
someone to do the right thing,” i.e., “to pay their
payments and pay their tax and tags.” 2T, at p. 22. The
Vehicle was never titled or registered in the name of the
Debtor. JS, ¶ 12. She drove the Vehicle with temporary
tags. 1T, at p. 18, even after their expiration. 1T, at p.
83.
The Debtor was evasive regarding whether she was
ever in default, testifying only that “perhaps” she
sometimes paid late, 1T, at p. 21, and that nobody ever
told her that she was behind. 1T, at pp. 68, 70. But she
did admit that after a radiator repair cost more than Mr.

63a
Pinto had estimated, she advised him that her next
payment would be late and that he agreed to that. 1T,
at pp. 23, 68.6
The Debtor paid for repairs on the Vehicle at least
twice. One concerned the radiator, mentioned above.
After speaking with Mr. Pinto, she was convinced to
have “his guy” repair it rather than take the Vehicle to
a dealership. 1T, at p. 22. She claimed that Mr. Pinto
quoted her $200 and that a dealership would charge her
$800. Id. After the repair cost $534, ex. D-12, she
complained to Mr. Pinto and, as stated above, explained
that her next Vehicle payment would be late. 1T, at p.
23. She also had a repair done to the passenger door that
was misaligned and ripping the framing. 1T, at p. 24. A
scratch on the Vehicle, 1T, at p. 25, may have been
repaired at the same time. The repair cost at least
$1,756. Ex. D-13.
Mr. Cohen met the Debtor after she had the radiator
replaced at NU2U’s mechanic and it cost more than Mr.
Pinto had led her to expect. 1T, at p. 22; 2T, at p. 15. Mr.
Cohen testified that she yelled at him in the showroom.
2T, at p. 15. She initially left without paying, but then
returned and paid. 2T, at p. 16.
The parties dispute what date the Vehicle was
repossessed. The Debtor contends she discovered the
Vehicle missing on the morning of March 13, 2017. 1T,
at p. 26. She recalls the date because she was starting a
When she discovered the Vehicle gone from her driveway, she
texted Mr. Pinto that “I told you I was going to be late.” 1T, at p.
27; ex. D-10. Thus the court does not understand why she was so
imprecise on the stand about whether she ever was in default.
6

64a
new job that morning. 1T, at pp. 25-26. She also alleges
that she called and texted Mr. Pinto complaining that
her Vehicle was gone. 1T, at pp. 26-27.
The Creditors argue that the Vehicle was
repossessed in February 2017. While Mr. Pinto recalls
the Debtor calling him about the Vehicle being
repossessed, he insists that it was on February 19, 2016.
1T, at p. 128. He does not recall what time of day she
called. Id. He testified that a few days after the Vehicle
was repossessed, the Debtor came in and signed a
waiver document. 1T, at pp. 129-130. Mr. Pinto
contends that the Debtor signed this document at that
time, collected her personal belongings from the
Vehicle, and left. 1T, at pp. 130-131. That document
states:
To Whom It May Concern,
Notice is given that the debtor under the
security agreement dated 07/21/2016, in
which Pine Valley Motors is the secured
party for the performance of which 2008
Chevrolet Corvette [VIN] was given to
secure the performance agreement. Debtor
acknowledges (his/her/its) default under the
security agreement and waives all rights to
Notification of Disposition of the collateral
under section 12A:9-611 of the New Jersey
Uniform Commercial Code and rights to
redeem the collateral, whether those rights
arise under the security agreement or
pursuant to Section 12A:9-623 of the New
Jersey Uniform Commercial Code.

65a
Ex. D-11, p. 17-2 (the “Waiver”). The document is a form
that that [sic] Pine Valley then runs through a printer
to add its name, address and phone numbers, the date,
the subject car and its VIN, the date of the security
agreement, and the debtor’s name. 1T, at pp. 131-32.
Thus Pine Valley has the capability of having a buyer
sign the document in blank and later running it through
a printer to add the particulars, including the date.
Not only does the Debtor not recall ever signing the
Waiver document, she swears she did not get her
personal belongings back. She testified that she likes to
pack her car up ahead of time when starting a new job
assignment. 1T, at p. 28. Prior to the repossession, she
alleges she had in the car her school books, her nursing
licenses from three states, her medical information, her
bank debit card, $750 in cash, prescription eyeglasses,
her high school diploma and her nursing diploma, but
not her purse. 1T, at pp. 28, 76. She testified that she
packed the Vehicle up on Saturday, March 11 for a job
that began on Monday, March 13. 1T, at p. 55. She
entered into evidence a copy of her replacement Social
Security card that was reissued April 11, 2017, and
testified that she obtained a copy of her driver’s license
on April 6, 2017. See 1T, at pp. 33-34; ex. D-15. She
additionally testified that a few days after her Vehicle
was repossessed, her bank account was hacked into,
with over $10,000 stolen. 1T, at p. 66.
The Debtor testified that the first time she went to
Pine Valley after the repossession, Mr. Pinto told her
she had to pay $530 to get her personal property back.
1T, at p. 29. The second time was after this bankruptcy
case was filed and she was directed to return to Pine

66a
Valley to collect her belongings. 1T, at pp. 29-30. She
testified that it cost her $120 round trip to take a cab
there. 1T, at p. 30. She says that Mr. Pinto told her that
the Vehicle was not there and that she had already
gotten her belongings back. 1T, at pp. 30-31.7
The court believes it is more likely than not that the
Debtor did not get her personal property back. While the
court finds it hard to believe that someone would leave
valuables such as the Debtor did in a car for two nights,
and at times might find someone claiming to act in a
palpably unreasonable manner as lying, not everyone
acts reasonably. Weighed against the testimony of the
Creditors on the subject, the court finds their positions
less believable.
For example, Mr. Cohen testified,
. . . [U]sually what we do is, because of the cost of
keys nowadays, everybody always wants their
stuff out of the car, so we offer, if you bring up
your key, you can then get your stuff out of the
car.

The court finds it troubling that the Creditors would allow the
Debtor to waste time and money on a trip to their facility to
recover the personal property when they subsequently took the
position that they were not in possession of the personal property.
Everyone in the courtroom that day was aware that the Debtor
was going to make that trip but NO ONE from the Creditors side
cautioned the Debtor or her counsel that the personal property
was allegedly not in their possession. It shows a lack of candor to
the court and the Debtor.
7

67a
2T, at p. 25. If the customer does not bring back the key,
then
Their stuff goes into storage, and in the event we
decide to sue them, they can then deal with the
storage company to get their stuff out. We sue
them for the balance of the money. But we do
hold everybody’s stuff for at least 30 days before
it goes into storage.
2T, at p. 26.
Despite referring to a storage company, on further
questioning Mr. Cohen revealed that storage is actually
a trailer on the property with a lock on it. 2T, at p. 44.
Though he admitted that if the buyer does not give back
the key, “I believe it’s a civil matter, but most of the time
they get their belongings anyway, because it’s usually
not very expensive cars. But if it is an expensive car, we
kind of push the issue that we’ll bring your car
back . . . .” 2T, at p. 44. If they don’t return the key, then
he has to get a key cut for the car. 2T, at p. 45. But as
for their possessions, “I say how about this, it’s
something fair. Bring up the key, I’ll give you your
possessions. If I had already made a key, then I just give
them their possessions because it doesn’t benefit me.”
2T, at p. 45.
Mr. Pinto testified that the Debtor returned the key
after she got her personal property. 1T, at p. 143. “I’m
pretty sure she left it right on my desk.” 2T, at p. 143.
But he had testified at a deposition that he did not know
whether the Debtor retrieved her personal property,
whether there was any property to retrieve, and that he
never saw the Vehicle again. 1T, at p. 136.

68a
In addition, Mr. Pinto testified that “typically” he
has customers sign a piece of paper saying that they
picked up their personal property. 1T, at p. 144. But
when asked whether he did so with the Debtor, he
prevaricated “I mean, again, every situation is different.
I mean this [the Waiver] is what I printed out at the
time, that she was kind of done with the car. You know,
give us the key, take your stuff out, you know.” 1T, at p.
145.
To summarize, the Creditors pressure buyers into
returning the Vehicle key by withholding access to the
Vehicle to collect their belongings. They say they have
buyers sign a receipt acknowledging return of the
belongings, but the Creditors did not follow their usual
procedures and have the Debtor do so in this case. Mr.
Pinto testified inconsistently about whether the Debtor
had retrieved her property. There was no evidence
submitted that reflected a return of the personal
property. There was animosity between these parties,
such that the court can believe that the Creditors would
act vengefully toward the Debtor. Finally, the Debtor
produced a key at the hearing with a Corvette logo on it,
which was examined by the Creditors, while the
Creditors did not produce a key. While this alone is not
solid evidence that this was the key to the Vehicle, the
court finds it is more likely than not the key to the
Vehicle.
Finally, as stated above, the Debtor filed her
bankruptcy case on March 21, 2017. Pine Valley
received notice of the filing on March 23, 2017. JS, at
¶ 13. The following day, the Debtor filed the motion now
before the court. She filed a plan proposing to cure and

69a
reinstate the Vehicle. Doc. No. 13. NU2U filed a proof of
claim in the amount of $28,773. Ex. D-8.
V.

CONCLUSIONS OF LAW

The Debtor seeks turnover of the Vehicle and
sanctions for violation of the automatic stay. The court
first addresses whether she has a right to turnover.
A. Turnover
Section 363(b) permits a trustee “after notice and a
hearing, [to] use, sell, or lease, other than in the
ordinary course of business, property of the estate. . .”
and section 363(d) allows a trustee to use, sell or lease
section 363(b) property to the extent not inconsistent
with any relief granted under section 362(c), (d), (e) or
(f). 11 U.S.C. §§ 363(b), (d). In turn, section 542(a)
provides that “an entity, other than a custodian, in
possession, custody, or control, during the case, of
property that the trustee may use, sell, or lease under
section 363 of this title, or that the debtor may exempt
under section 522 of this title, shall deliver to the
trustee, and account for, such property or the value of
such property, unless such property is of
inconsequential value or benefit to the estate.” 11 U.S.C.
§ 542(a). Property of the estate includes “[a]ll legal or
equitable interests of the debtor in property as of the
commencement of the case.” 11 U.S.C. § 541(a)(1). See
Westmoreland Human Opportunities, Inc. v. Walsh, 246
F.3d 233, 241 (3d Cir. 2001).
In chapter 13, the debtor, not the trustee, has
standing under section 542(a). In re Sharon, 234 B.R.
676, 687 (B.A.P. 6th Cir. 1999) (“To the extent a Chapter

70a
13 debtor can then use property of the estate under
§ 363, the debtor succeeds to the mandate in § 542(a)
that compels delivery of property that is usable under
§ 363.”). See In re Dash, 267 B.R. 915, 917 (Bankr.
D.N.J. 2001) (tracing section 1303 to sections 363(b) and
542(a)). See also In re McCann, 537 B.R. 172, 178 n. 3
(Bankr. S.D.N.Y. 2015) (chapter 13 debtors have the
right to use non-business property without prior court
approval); In re Laflamme, 397 B.R. 194, 205 (Bankr.
D.N.H. 2008); Collier on Bankruptcy, ¶ 1303.02
(Matthew Bender 2017) (“Congress apparently felt that
there was no need to explicitly state the right of a
nonbusiness chapter 13 debtor to use property in the
ordinary course of the debtor’s affairs, since section
1306(b) expressly authorizes the chapter 13 debtor to
retain possession of all property of the estate.”).8
Thus, as a chapter 13 debtor, the Debtor had the
right to request turnover of property that she could use,
sell or lease. The Creditors should have returned her
personal property when she asked for it on April 4. They
provided no legal basis for retaining it. Alternatively, if
they threw out her property, then they breached their
contract that requires them to give a buyer notice prior
to disposal.
As for the Vehicle, the Creditors argue that it was
not titled in the Debtor’s name, she also surrendered the
Vehicle, and there was no insurance on the Vehicle.

For ease of reading, where in this opinion the court references a
debtor’s right to turnover, it means a chapter 13 debtor’s right. In
chapter 7, the turnover right belongs to the trustee.
8

71a
The question becomes, what was the Debtor’s
interest in the Vehicle at the time of filing?
i.

Equitable interest in the Vehicle

Several bankruptcy courts have recognized that
beneficial or equitable ownership may trump legal title
for purposes of property of the estate where the
applicable state law so provides. See In re DuFoe, 392
B.R. 534, 539 (Bankr. W.D.N.Y. 2008) (rebuttable
presumption under New York’s Vehicle and Traffic Law
that one other than the title owner can be the beneficial
or equitable owner of a vehicle); In re Groves, 05-76317,
2006 WL 6211798, at *5 (Bankr. N.D. Ohio Apr. 13,
2006) (vehicle not property of the estate where debtor
held legal title only in vehicle solely for the benefit of
her son); In re Garberding, 338 B.R. 463 (Bankr. D. Colo.
2005) (presumption of ownership rebutted by title
owner’s boyfriend who made all payments, paid for
insurance and maintenance, and was the exclusive
driver). But see In re Kirk, 381 B.R. 800, 802 (Bankr.
M.D. Fla. 2007) (debtor failed to rebut presumption that
she had no legal or beneficial interest in vehicle titled in
her and her daughter’s name, purchased by daughter’s
grandfather for and driven solely by her daughter, but
with insurance and maintenance paid for by the debtor).
See also In re Moore, 448 B.R. 93, 100 (Bankr. N.D. Ga.
2011) (where debtors pawned vehicles, but still retained
right to possession, legal title, beneficial ownership
interest subject to automatic divestment, and the right
to maintain possession and redeem, vehicles were
property of the estate at the time of the filing of the
case).

72a
New Jersey courts have granted in insurance
coverage cases that “there may be more than one ‘owner’
of a vehicle.” Verriest v. INA Underwriters Ins. Co., 142
N.J. 401, 408 (1995). In so deciding Verriest, the New
Jersey Supreme Court cited with approval Am.
Hardware Mut. Ins. Co. v. Muller, 98 N.J. Super. 119,
236 A.2d 182 (1967), aff’d, 103 N.J. Super. 9, 246 A.2d
493 (1968), a case where, in order to obtain financing,
legal title of a vehicle was placed in the name of David
Muller, but his father, Ernest, made the payments on,
used, and maintained the vehicle, and Ernest purchased
the subject insurance in his name. See Muller, 98 N.J.
Super. at 122. The Muller court held that title papers,
which are synonymous with certificate of ownership,
were evidence of ownership of a vehicle, but not
conclusive evidence. Id., at 128. For purposes of
insurance coverage, it decided the car was owned by
Ernest.
In so holding, the Verriest court considered the
factors listed in a case decided by the Supreme Court of
Washington:
(a) Who paid for the car, (b) who had the right to
control the use of the car, (c) the intent of the
parties who bought and sold the car, (d) the
intent of the parents and the child relative to
ownership, (e) to whom did the seller make
delivery of the car, (f) who exercised property
rights in the car from the date of its purchase to
the date of the accident, and (g) any other
circumstantial evidence [that] may tend to
establish the fact of ownership.

73a
Verriest, at 409-10 (citing Coffman v. McFadden, 68
Wash.2d 954, 416 P.2d 99, 102 (1966)).
Another New Jersey court, also citing Muller,
commented that this deviation from title ownership is
appropriate to find that the insurance policy covers the
actual user of the vehicle—the beneficial owner—rather
than one who is merely a title owner. Friedman v. Royal
Globe Ins. Companies, 137 N.J. Super. 192, 197 (Law.
Div. 1975). See Dobrolowski v. R.C. Chevrolet, Inc., 227
N.J. Super. 412, 415 (Law. Div. 1988) (“The owner of the
vehicle is usually the person who holds the title and in
whose name the vehicle is registered, but this is not
always the case.”). The Third Circuit has also extended
this idea to stock ownership. See Yonadi v. C.I.R., 21
F.3d 1292, 1298 (3d Cir. 1994) (citing Muller in holding
that “New Jersey law does not require strict compliance
with the formalities of stock ownership registration in
order to recognize ownership interest.”).
Thus it was not a reach for our sister court in
applying New Jersey law to extend Muller to the
bankruptcy context. There, the court held that vehicles
registered in employees’ names but used for the benefit
of the corporate debtor, with loan payments made by the
corporate debtor, were owned by the debtor for purposes
of property of the estate. In re B & P Distributors, Inc.,
1 B.R. 426, 427 (Bankr. E.D. Pa. 1979). “Under New
Jersey law, the certificate of title is not the sole
determinant of ownership. It creates only a rebuttable
presumption of ownership.” Id., at 427. Accord In re
Potter’s Landscape Nursery, Inc., 44 B.R. 198 (Bankr.
E.D. Pa. 1984).

74a
Building on Muller, B & P and Potter’s Landscape,
the court In re Rutledge, 115 B.R. 344, 346 (Bankr. N.D.
Ala. 1990), aff’d sub nom. Matter of Rutledge, 121 B.R.
609 (N.D. Ala. 1990), also found equitable ownership in
a vehicle for purposes of determining whether it was
property of the estate and subject to a turnover order.
There the debtor had made all payments, made a downpayment, transferred title on a trade-in car to the
creditor, placed insurance on the car in her name with
the creditor as loss-payee, negotiated a refinancing of
the car with the creditor, and remained in possession of
the car, even though the car had been purchased under
her father’s credit and was titled in his name. Id.
Here, Mr. Pinto admitted that the Debtor “definitely
purchased the car, absolutely.” 1T, at p. 114. The Debtor
possessed, made weekly payments on, and maintained
the Vehicle. She made costly repairs. She exercised all
rights to it up until its repossession. Though she did not
have legal title, Mr. Pinto admitted that paying the
taxes and obtaining the tags were the sole responsibility
of the Creditors. Without question, the Debtor had an
equitable ownership in the Vehicle.
More importantly, the fact that the taxes and tags
had not been obtained in this case was solely the
Creditors’ fault and actually a breach of its contract. The
Creditors failed to obtain title in the Debtor’s name
despite that the Debtor made more than enough regular
Vehicle payments to cover this cost. If the Creditors had
done what they were contractually required to do, at the
time of the repossession the Vehicle would have been
titled in the Debtor’s name, establishing her as the
actual legal owner. It seems a proper remedy for the

75a
Creditors’ breach of contract would be to return the
parties to their positions prior to the breach. Petron
Scientech, Inc. v. Zapletal, 16-1091, 2017 WL 2992079,
at *3 (3d Cir. July 14, 2017) (citing Furst v. Einstein
Moomjy, Inc., 182 N.J. 1, 860 A.2d 435, 442 (2004)) and
Marina Dist. Dev. Co., LLC v. Ivey, 223 F. Supp. 3d 216,
221 (D.N.J. 2016) (citing Totaro, Duffy, Cannova and
Company, L.L.C. v. Lane, Middleton & Company,
L.L.C., 191 N.J. 1, 921 A.2d 1100, 1107 (2007)).
Accordingly, this court finds that the Debtor, at
minimum, had an equitable interest in, if not was, the
equitable owner of the Vehicle at the time of the
bankruptcy filing. Because of that equitable
interest/ownership, upon the filing of her petition, the
Vehicle was property of the estate under section
541(a)(1) that she could use and thus request turnover
from the Creditors.
ii.

Surrender of the Vehicle

The court makes this finding despite the Creditors’
argument that the Debtor surrendered the Vehicle to it
prepetition. The court acknowledges that the parties
debated when or even if the Debtor signed the Waiver.
Regardless, for several reasons, the Waiver does not
serve to exclude the Vehicle from property of the estate.
The first is the most obvious. Nowhere in the Waiver
does the word “surrender” appear. It acknowledges a
default and waives notice and a right to redeem, but
nowhere does it state the Debtor surrendered the
Vehicle. Therefore, there is no surrender to rebut her
equitable interest in the Vehicle.

76a
More importantly, the purported waiver of a right to
redeem is invalid as New Jersey’s Commercial Code
prohibits waiver of a right of redemption in these
circumstances. The Waiver purports to have the Debtor
waive her rights under New Jersey’s Commercial Code
sections 12A:9-611 and 12A:9-623. Section 610 of New
Jersey’s Commercial Code provides that, “[a]fter
default, a secured party may sell, lease, license, or
otherwise dispose of any or all of the collateral in its
present condition or following any commercially
reasonable preparation or processing.” N.J.S.A. 12A:9610. Section 9-611 then provides that the secured party
must send notice of disposition of the collateral to the
Debtor. N.J.S.A. 12A:9-611(b). Section 9-623 permits a
debtor to redeem collateral, N.J.S.A. 12A:9-623(a), “at
any time” before the creditor:
•

has collected collateral under 12A:9-6079

“Collection” appears to refer to liquid assets. See Uniform
Commercial Code Comment 2 to N.J.S.A. 12A:9-607 (“Collateral
consisting of rights to payment is not only the most liquid asset
of a typical debtor’s business but also is property that may be
collected without any interruption of the debtor’s business. . . .
This section allows the assignee to liquidate collateral by
collecting whatever may become due on the collateral, whether or
not the method of collection contemplated by the security
arrangement before default was direct (i.e., payment by the
account debtor to the assignee, “notification” financing) or
indirect (i.e., payment by the account debtor to the assignor,
“nonnotification” financing).”). See, e.g. Major’s Furniture Mart,
Inc. v. Castle Credit Corp., 602 F.2d 538, 542 (3d Cir. 1979)
(applying UCC § 9-502, the precursor to § 9-607). See also In re
Herbst, 469 B.R. 299, 304 (Bankr. W.D. Wis. 2012) (“The phrase
“collection of collateral” under Revised U.C.C. § 9-623 is new but
the listing is apparently a clarification, rather than a substantive
9

77a
•

has disposed of collateral or entered into a
contract for its disposition, or

•

has accepted collateral in full or partial
satisfaction of the obligation it secures.

N.J.S.A. 12A:9-623(c)(1)-(3) (amended eff. Jan. 8,
2002).10
The Creditors assert that by signing the Waiver, the
Debtor waived her right to redeem and to notice of
disposition of the collateral. But while the Commercial
Code provides for waiver of the right to redeem
collateral, it specifically excepts consumer-goods
transactions from the waiver right:
(c) Waiver of redemption right. Except in a
consumer-goods transaction, a debtor or
secondary obligor may waive the right to
redeem collateral under 12A:9-623 only by an
agreement to that effect entered into and
authenticated after default.
N.J.S.A. 12A:9-624(c).
Under the Commercial Code, a consumer
transaction is one in which “(i) an individual incurs an
obligation primarily for personal, family, or household
purposes, (ii) a security interest secures the obligation,
change. 1 Secured Transactions Under the Uniform Commercial
Code, § 8.16[2] (Matthew Bender 2012).”). Certainly, Creditors
cannot claim they collected their collateral in accordance with
12A:9-607.
10 Notably, there is no 30-day deadline. The court does not know
why Mr. Cohen believes he may re-sell vehicles after 30 days. See
2T, at p. 36.

78a
and (iii) the collateral is held or acquired primarily for
personal, family, or household purposes.” N.J.S.A.
12A:9-102.
Clearly this Vehicle was purchased for personal use.
Indeed, the Contract specifically designated the Vehicle
as for “personal, family or household use” and states
that the agreement is a “consumer credit contract.”
Accordingly, regardless of if or when the Debtor signed
the Waiver, it was invalid under New Jersey law. Thus,
not only did the Debtor not surrender the Vehicle by
signing the Waiver, she did not waive her right to
redeem it.
And as the Creditors had neither collected, disposed
of, entered into a contract for disposition, or accepted
the collateral in full or partial satisfaction of the
obligation prior to the filing of the bankruptcy petition—
NU2U’s filing of a proof of claim in the amount of
$28,773 negates any suggestion that it accepted the
collateral in full or partial satisfaction of the obligation,
see ex. D- 8—the debtor’s right to redeem remains.11
Thus, not only did the Debtor have a right to request
turnover of the Vehicle as an equitable owner of the
Vehicle, the “Waiver” is invalid and her right to redeem
remained in place at the time of her bankruptcy filing.
Her right to redeem also represents an equitable

The court was aware going into the plenary hearing of this
invalidity, as sections 611 and 623 are cited in the Waiver itself.
It was pleased that the Debtor in her post-trial brief also picked
up on the issue.
11

79a
interest that became property of the estate under
section 541(a)(1) upon filing her petition.
B. Automatic Stay
Having established that the interest in the Vehicle
and right to redeem are property of the estate, the court
now turns to whether the Creditors violated the stay by
refusing turnover of the Vehicle and/or the personal
possessions. This raises an issue of the interaction
between sections 542(a), 363(e) and 362(a)(3): turnover,
adequate protection, and the automatic stay.
Section 542(a) was discussed above. Section 363(e)
provides:
Notwithstanding any other provision of this
section, at any time, on request of an entity that
has an interest in property used, sold, or leased,
or proposed to be used, sold, or leased, by the
trustee, the court, with or without a hearing,
shall prohibit or condition such use, sale, or lease
as is necessary to provide adequate protection of
such interest. This subsection also applies to
property that is subject to any unexpired lease of
personal property (to the exclusion of such
property being subject to an order to grant relief
from the stay under section 362).
11 U.S.C. § 363(e).
Courts analyzing whether a failure to turn over
property violates the automatic stay consider section
362(a)(3), which provides:

80a
(a) Except as provided in subsection (b) of this
section, a petition filed under section 301, 302, or
303 of this title . . . operates as a stay, applicable
to all entities, of— . . .
(3) any act to obtain possession of property of the
estate or of property from the estate or to exercise
control over property of the estate. . . .
11 U.S.C. § 362(a)(3).
Congress added “or to exercise control” to section
362(a)(3) by the Bankruptcy Amendments and Federal
Judgeship Act of 1984, In re Sharon, 200 B.R. at 187,
without explanation. In re Young, 193 B.R. at 623; In re
Sw. Equip. Rental, Inc., 1-88-00033, 1990 WL 129972,
at *3 (Bankr. E.D. Tenn. Feb. 8, 1990). The meaning of
that phrase, “to exercise control,” is the subject of a
circuit split made more challenging by the absence of
any legislative history on the amendment, see In re Sw.
Equip. Rental, Inc., 1-88-00033, 1990 WL 129972, at *3
(Bankr. E.D. Tenn. Feb. 8, 1990), to explain Congress’s
intent.
Four circuit courts of appeal have held that section
542(a) requires immediate turnover of property that the
debtor can use, and that failure to do so violates section
362(a)(3)’s “to exercise control” provision. Weber v.
SEFCU (In re Weber), 719 F.3d 72, 82 (2d Cir. 2013);
Thompson v. General Motors Acceptance Corp., LLC (In
re Thompson), 566 F.3d 699, 703 (7th Cir. 2009);
California Employment Dev. Dept. v. Taxel (In re Del
Mission Ltd.), 98 F.3d 1147, 1151-52 (9th Cir. 1996);
Knaus v. Concordia Lumber Co., Inc. (In re Knaus), 889
F.2d 773, 775 (8th Cir. 1989). See also TranSouth Fin.

81a
Corp. v. Sharon (In re Sharon), 234 B.R. 676, 682
(B.A.P. 6th Cir. 1999); In re Colortran, Inc., 210 B.R.
823, 827 (B.A.P. 9th Cir. 1997), aff’d in part, vacated in
part on other grounds, 165 F.3d 35 (9th Cir. 1998). Some
courts additionally hold that this pertains even if the
secured creditor is not adequately protected, relief that
it must separately petition the court for. Weber, 719
F.3d at 81-82; Thompson, 566 F.3d at 708; Sharon, 234
B.R. at 683; Colortran, 210 B.R. at 827.
Two circuit courts of appeal have instead held that
a creditor does not violate the stay in regard to property
of the estate if it merely maintains the status quo. In re
Cowen, 849 F.3d 943 (10th Cir. 2017); U.S. v. Inslaw,
932 F.2d 1467 (D.C. Cir. 1991). These courts and those
following them emphasize that 362(a)(3)’s language, “an
act . . . to exercise control,” is forward-looking, and thus
a creditor must take some new, postpetition action to
exercise control over the property of the estate in order
to violate the stay. In re Cowen, 849 F.3d 943, 949 (10th
Cir. 2017) (“This section, then, stays entities from doing
something to obtain possession of or to exercise control
over the estate’s property. It does not cover ‘the act of
passively holding onto an asset,’ Thompson, 566 F.3d at
703, nor does it impose an affirmative obligation to
turnover property to the estate.”) (emphasis in original);
United States v. Inslaw, Inc., 932 at 1474 (“The
statutory language makes clear that the stay applies
only to acts taken after the petition is filed.”); In re Hall,
502 B.R. 650, 665 (Bankr. D.D.C. 2014) (“[T]he ‘act . . .
to exercise control’ language itself suggests that an
affirmative act of exercising control is required.”); In re
APF Co., 274 B.R. 408 (Bankr. D. Del. 2001) (J. Walsh)

82a
(“. . . Plaintiffs must show that NYLCare engaged in
conduct which was an affirmative post-petition act
manifesting either an exercise of control over property
of the estate, or collecting, assessing or recovering such
property in order to demonstrate a stay violation.”); In
re Young, 193 B.R. 620, 629 (Bankr. D.D.C. 1996)
(“. . . the stay is intended only to prohibit postpetition
affirmative acts by creditors and thus acts as a freeze of
the status quo at petition.”).
These status quo courts read sections 542(a) and
363(e) together to allow a debtor to request turnover of
property he or she can use while allowing the creditor to
respond with a request for adequate protection.12 In re
Hall, at 659. See In re Quality Health Care, 215 B.R.
543, 581 (Bankr. N.D. Ind. 1997), appeal denied, cause
remanded sub nom. Gouveia v. I.R.S., 228 B.R. 412
(N.D. Ind. 1998) (“However, the cases are legion, that
because § 542(a) expressly refers to § 363, before a
secured creditor is required to turnover property of the
Debtor’s estate, the Trustee must first provide the IRS
with adequate protection as to lien interest.”). Refusing
to turn property over because the creditor is not
adequately protected is not the kind of postpetition
“control” that violates the stay. Cowen, 849 F.3d at
949.13 Instead, a creditor wrongly withholding property
It must be remembered that here, the Debtor’s Motion was filed
3 days after the bankruptcy filing to be heard on shortened time.
Creditors timely opposed the motion, effectively setting forth
their counter demand for relief.
13 “Exercise control” may be an easier concept to apply to
intangible property, such as contract rights. See In re Hall, 502
B.R. at 665.
12

83a
may be sanctioned under the court’s contempt power
under section 105(a) after an order for turnover has
been entered and disobeyed. In re Cowen, 849 F.3d at
950; In re Hall, 502 B.R. at 650.
i.

The Vehicle

The Third Circuit Court of Appeals has not
addressed the issue, and the district and bankruptcy
courts for the District of New Jersey have not
definitively expressed an opinion.14 For at least the last
20 years, in this judge’s recollection, the practice in this
district has been that a creditor holding a car
repossessed prepetition may request proof of insurance
naming it as loss payee prior to turnover without
violating the stay. But once proof of insurance has been
produced, the creditor violates the stay by not returning
the car. Yet it could find no case rationalizing this.
Section 362(b) does not include an exception for
adequate protection. The District Court’s Carr decision
has been cited as supporting the majority opinion
because it held that “the bank’s failure to turn over
debtor’s car upon the filing of debtor’s bankruptcy
petition constituted a violation of the automatic stay.”
Carr v. Sec. Sav. & Loan Ass’n, 130 B.R. 434, 435
Interestingly, in the context of the automatic stay and section
108(a), which tolls limitations periods, the Third Circuit
commented “That Congress intended § 362 to prohibit only
certain types of affirmative action is evidenced by the statute’s
language, (i.e., “enforcement”; “proceeding”; “act to obtain”) and
by its corresponding non-utilization of terms which appropriately
describe the extension or suspension of a statutory period.” Ctys.
Contracting & Const. Co. v. Constitution Life Ins. Co., 855 F.2d
1054, 1059 (3d Cir. 1988).
14

84a
(D.N.J. 1991). But it also stated “Security Savings was
obliged to turn over the repossessed car immediately
after the filing of the second petition and the verification
of insurance.” Id., at 436 (emphasis added).15 The court
sees no reason to abandon the long established practice
of maintaining the status quo in repossessed vehicle
cases until a debtor provides proper proof of adequate
protection, i.e., insurance.16

Despite that Carr cites to In re Loof, 41 B.R. 855 (Bankr. E.D.
Pa. 1984), the court in In re Najafi, 154 B.R. 185 (Bankr. E.D. Pa.
1993), agreed with the minority position that a debtor “must both
provide adequate protection to the creditor and seek affirmative
relief to obtain a turnover.” Najafi, at 194 (abrogated on other
grounds by In re Mehta, 310 F.3d 308 (3d Cir. 2002)). The Najafi
court also cited Loof as supporting its position.
As an aside, since there was no proof at trial that the Debtor had
any insurance at the time of filing, see 1T, at p. 36-39 (testifying
that she did not bring proof of insurance to the plenary hearing,
despite the Creditors having requested it in discovery), the court
cannot fault the Creditors for not turning the Vehicle over. New
Jersey requires that prior to anyone driving an automobile or
motorcycle in this state, the vehicle be registered. N.J. Stat.
§ 39:3-4. Registration, among other things, requires proof of
insurance. N.J. Stat. § 39:3-4. Minimally, a registered New Jersey
driver must carry motor vehicle liability coverage. N.J. Stat.
§ 39:6B-1, N.J.S.A. 39:6A-3.
16 Indeed it makes no sense to the court to require an immediate
turnover of a vehicle only to have a creditor immediately turn
around and file a stay relief motion due to a lack of adequate
protection because of a lack of insurance especially when
insurance on a vehicle is mandatory under state law and
adequate protection is necessary to protect a creditor’s interest in
the first place. To that end, the court is mindful that the law tries
to avoid absurd results. See e.g. Citizens Bank of Maryland v.
Strumpf, 516 U.S. 16, 18 (1995) (in setoff situations recognizing:
15

85a
In cases involving other types of property, New
Jersey bankruptcy courts, including this court, have
cited the majority position without discussion. See In re
Sussex SkyDive, LLC, 2016 Bankr. LEXIS 1862 (Bankr.
D.N.J. Apr. 27, 2016) (regarding an airplane, citing the
majority in stating that “creditors have an affirmative
duty to turn over property of the estate once notified of
a bankruptcy filing”); In re Stamper, 2008 WL 724237
(Bankr. D.N.J. Mar. 17, 2008) (citing Del Mission and
Sharon to sanction a failure to turn over funds paid
postpetition as a violation of the stay). But those cases
are distinguishable. Sussex SkyDive involved a landlord
wrongfully exercising control over property that was
clearly property of the estate and Stamper involved an
unperfected judgment lien creditor wrongfully
exercising control over property of the estate. Both cases
involved creditor affirmative actions postpetition to
exercise control over property of the estate, thereby
affecting the status quo that would not have been
permitted under the minority view.
In this case, this court finds the minority position
particularly persuasive. That position criticizes the
majority’s claim that section 542(a) is self-effectuating,
as it does not allow for the possibility of defenses to
turnover. From the inception of this case there was an
issue regarding exactly what the Debtor’s interest in the
Vehicle was. Only after analyzing the Contract between
the parties, examining the relevant law and vetting the
uncertain evidence and arguments of the parties, did
“the absurdity of making A pay B when B owes A.”) (citing Studley
v. Boylston Nat. Bank, 229 U.S. 523, 528 (1913)).

86a
the court make a determination, through this decision,
of exactly what the Debtor’s interest in the Vehicle was.
The Debtor’s interest was not readily obvious—there
was a prepetition default in payments, there was a
prepetition repossession, the Debtor did not have
possession of the Vehicle, the Vehicle was never titled
in the Debtor’s name and a Waiver was purportedly
signed. It was only after the court conducted its analysis
that the error of the Creditors’ position came to light.
During this time, the Vehicle has remained in the
possession of the Creditors and no further actions
against it have been taken. The status quo has been
maintained while the court considered its decision. It
would simply be unfair to declare a stay violation for not
turning the Vehicle over when the Debtor’s true interest
in the Vehicle was unknown. See United States v.
Inslaw, 932 F.2d at 1472 (“It is settled law that the
debtor cannot use the turnover provisions to liquidate
contract disputes or otherwise demand assets whose
title is in dispute.”); In re Hall, 502 B.R. at 663 (“Only
upon entry of a turnover order adjudicating the estate’s
ownership of the property could there be a contempt for
failing to turn over the property.”). The Creditors will be
ordered to turn the Vehicle over, but will not be
sanctioned under section 362 for failing to turn it over
prior to adjudication of the Debtor’s right to redeem the
Vehicle.
The court notes also that the Debtor did not specify
under which paragraph of section 362(a) she proceeds.
In her motion, she only discusses the stay as a
mechanism to discontinue any pending collection
proceedings and “restore the status quo as it existed at

87a
the time of the filing of the bankruptcy petition.” Doc.
No. 5-7, p. 3 (quoting In re Johnson, 262 B.R. 831, 84748 (Bankr. D. Idaho 2001). But she did not allege that
the Creditors attempted to collect on their claim against
her, and it does not appear that the Creditors took any
action regarding the Vehicle postpetition. Thus,
sanctions are not warranted.
ii.

The Personal Property

The personal property presents a different result.
There is no question that at the time of the bankruptcy
filing, the Debtor had a legal right to her possessions
and the Creditors had no right to that property. Unlike
the Vehicle, there is no question of ownership. Indeed,
the Creditors provided no basis in law for keeping this
property from the Debtor and the court cannot fathom
one. Certainly the Debtor could use her licenses, credit
cards, and cash, in this chapter 13 case. Thus section
542(a) was applicable. The Creditors had no security
interest in the property, therefore there is no issue of
adequate protection, despite the Creditors’ desire to
protect themselves from the cost of having a new key
cut. Based upon the testimony provided by the
Creditors, the personal property should still be in the
possession of the Creditors. No credible evidence
supports their position that the personal property was
returned to the Debtor and in fact, the court finds that
the Creditors completely lack credibility on this point.
Through their own testimony it is clear that the
Creditors did not follow any of their procedures,
contractual or otherwise, with regard to the return or
disposition of the personal property. There is no proof
that supports their version of the facts. The court is also

88a
at a loss as to why they would make the Debtor go on a
wild goose chase after the bankruptcy was filed if they
were certain they did not have the personal property.
Indeed, suspicious.
Even though the court believes it is more likely than
not that the Creditors did not return the personal
property to the Debtor, the evidence does not show that
the Creditors are still in possession of the personal
property or were in possession of it at the time of the
bankruptcy filing. The court cannot determine with
certainty whether there has been a stay violation under
section 362 as to the personal property.17 Therefore, the
court will order return of the personal property within
seven days of the entry of this opinion. If the property is
returned, the court will consider sanctions for a stay
violation and/or contempt. If the property is not
returned within that time, the court will entertain
sanctions for contempt. While “[c]riminal contempt
sanctions are punitive in nature and are imposed to
vindicate the authority of the court . . . sanctions in civil
contempt proceedings may be employed ‘for either or
both of two purposes: to coerce the defendant into
compliance with the court’s order, and to compensate
the complainant for losses sustained.’” Local 28 of Sheet
Metal Workers’ Int’l Ass’n v. E.E.O.C., 478 U.S. 421, 443
(1986) (quoting United States v. Mine Workers, 330 U.S.
258, 302, (1947)). In so holding, the court notes that the
Debtor’s claim that she has been unable to work due to
not having her Vehicle is a damage related to turnover
of the Vehicle that the court is not sanctioning. Unless
A return of the personal property will go to a mitigation of
damages.
17

89a
she shows that she needed those personal possessions
in order to work, the loss of wages may not be part of
any damages. Also, the Debtor has a duty to mitigate
damages. Relatedly, the Creditors will not be allowed
reimbursement or set off of their repair costs or their
post-repossession storage, as these actions were done
for their own benefit and/or while they were in breach
of their contract.
v.

CONCLUSION

Based on the foregoing, the Debtor’s Motion for
Return of Repossessed Auto will be granted. Her Motion
for Sanctions for Violation of Automatic Stay will be
denied as to the Vehicle. The Creditors will also be
ordered to return the personal property. The court
reserves its opinion as to appropriate sanctions, if any,
with regard to the personal property.
An appropriate judgment
consistent with this decision.

has

been

entered

The court reserves the right to revise its findings of
fact and conclusions of law.
/s/ Andrew B. Altenburg, Jr.
United States Bankruptcy Judge
Dated: October 20, 2017

